<html>
<title> - ISIS ONLINE: COUNTERING TERRORIST RADICALIZATION AND RECRUITMENT ON THE INTERNET AND SOCIAL MEDIA</title>
<body><pre>[Senate Hearing 114-453]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 114-453

                        ISIS ONLINE: COUNTERING
  TERRORIST RADICALIZATION AND RECRUITMENT ON THE INTERNET AND SOCIAL 
                                 MEDIA

=======================================================================

                                 HEARING

                               BEFORE THE

                PERMANENT SUBCOMMITTEE ON INVESTIGATIONS

                                 OF THE

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS


                             SECOND SESSION

                               ----------                              

                              JULY 6, 2016

                               ----------                              

        Available via the World Wide Web: http://www.fdsys.gov/

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                         U.S. GOVERNMENT PUBLISHING OFFICE
22-476PDF                         WASHINGTON: 2016                         

________________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e7809788a7849294938f828b97c984888ac9">[email&#160;protected]</a>  



        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                    RON JOHNSON, Wisconsin, Chairman
JOHN McCAIN, Arizona                 THOMAS R. CARPER, Delaware
ROB PORTMAN, Ohio                    CLAIRE McCASKILL, Missouri
RAND PAUL, Kentucky                  JON TESTER, Montana
JAMES LANKFORD, Oklahoma             TAMMY BALDWIN, Wisconsin
MICHAEL B. ENZI, Wyoming             HEIDI HEITKAMP, North Dakota
KELLY AYOTTE, New Hampshire          CORY A. BOOKER, New Jersey
JONI ERNST, Iowa                     GARY C. PETERS, Michigan
BEN SASSE, Nebraska

                  Christopher R. Hixon, Staff Director
              Gabrielle A. Batkin, Minority Staff Director
           John P. Kilvington, Minority Deputy Staff Director
                     Laura W. Kilbride, Chief Clerk
                   Benjamin C. Grazda, Hearing Clerk


                PERMANENT SUBCOMMITTEE ON INVESTIGATIONS

                       ROB PORTMAN, Ohio Chairman
JOHN McCAIN, Arizona                 CLAIRE McCASKILL, Missouri
RAND PAUL, Kentucky                  JON TESTER, Montana
JAMES LANKFORD, Oklahoma             TAMMY BALDWIN, Wisconsin
KELLY AYOTTE, New Hampshire          HEIDI HEITKAMP, North Dakota
BEN SASSE, Nebraska

           Brian Callanan, Staff Director and General Counsel
        Margaret Daum, Minority Staff Director and Chief Counsel
                       Kelsey Stroud, Chief Clerk
                            
                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Portman..............................................     1
    Senator McCaskill............................................     4
    Senator Ayotte...............................................    15
    Senator Lankford.............................................    17
    Senator Heitkamp.............................................    19
    Senator Baldwin..............................................    20
Prepared statements:
    Senator Portman..............................................    45

                               WITNESSES
                        Wednesday, July 6, 2016

Michael Steinbach, Executive Assistant Director, National 
  Security Branch, Federal Bureau of Investigation...............     6
George Selim, Director, Office of Community Partnerships, U.S. 
  Department of Homeland Security, and Director, Interagency Task 
  Force on Countering Violent Extremism..........................     8
Meagan M. LaGraffe, Chief of Staff to the Coordinator and Special 
  Envoy, Global Engagement Center, U.S. Department of State......    10
Peter Bergen, Vice President, New America Foundation.............    33
Alberto M. Fernandez, Vice President, Middle East Media Research 
  Institute......................................................    35

                     Alphabetical List of Witnesses

Bergen, Peter:
    Testimony....................................................    33
    Prepared statement...........................................    64
Fernandez, Alberto M.:
    Testimony....................................................    35
    Prepared statement...........................................    82
LaGraffe, Meagan M.:
    Testimony....................................................    10
    Prepared statement...........................................    59
Selim, George:
    Testimony....................................................     8
    Prepared statement...........................................    54
Steinbach, Michael:
    Testimony....................................................     6
    Prepared statement...........................................    51

                                APPENDIX

Images submitted by Senator Portman..............................    49
Statement submitted for the Record by American-Arab Anti-
  Discrimination Committee.......................................    95
Responses to post-hearing questions for the Record
    Mr. Selim....................................................   100
    Ms. LaGraffe.................................................   109

 
                        ISIS ONLINE: COUNTERING
                      TERRORIST RADICALIZATION AND
              RECRUITMENT ON THE INTERNET AND SOCIAL MEDIA

                              ----------                              


                        WEDNESDAY, JULY 6, 2016

                                   U.S. Senate,    
              Permanent Subcommittee on Investigations,    
                    of the Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:07 p.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Rob Portman, 
Chairman of the Subcommittee, presiding.
    Present: Senators Portman, Lankford, Ayotte, Sasse, 
Johnson, McCaskill, Tester, Baldwin, Heitkamp, and Carper.

              OPENING STATEMENT OF SENATOR PORTMAN

    Senator Portman. This hearing will come to order. We are 
here to talk about an incredibly important issue, a critical 
issue that affects the security of our country and the security 
of our families.
    When the Subcommittee first began planning this hearing, of 
course, we did not know it would fall just 3 weeks after the 
most deadly terrorist attack on American soil since September 
11th. The evil terrorist attack in Orlando last month that 
targeted the lesbian, gay, bisexual and transgender (LGBT) 
community was yet another reminder of the urgent need to 
reexamine and redouble our government's efforts to combat 
violent Islamic jihadism both at home and abroad--and 
particularly to disrupt and ultimately destroy the so-called 
Islamic State of Iraq and Syria (ISIS). There is no room for 
complacency on this issue. It warrants continuous scrutiny and 
oversight from Congress as our government's understanding of 
the enemy evolves. And we will hear some about that today.
    ISIS, of course, specializes in savagery--violence inspired 
by delusions of sectarian conquest from another age. Yet it has 
effectively deployed modern technology of the information age 
to spread its propaganda and recruit killers to its cause. ISIS 
has developed a sophisticated information warfare capability. 
It has pioneered a distinctive strategy of targeted online 
recruitment, while disseminating sleek viral videos and 
messages, primarily from two media centers--Al-Hayat and Al-
Furqan--through a constantly evolving set of online platforms. 
As the Federal Bureau or Investigation (FBI) Director James 
Comey has noted, even if we were able to keep foreign 
terrorists physically out of the United States, online 
communication and social media allow ISIS to, as he said, 
``enter as a photon and radicalize somebody in Wichita, 
Kansas.'' ISIS has weaponized online propaganda in a new and 
very lethal way.
    The damage wrought by that weapon is considerable: Orlando, 
49 dead; San Bernardino, 14; Fort Hood, 13 dead; the Boston 
Marathon, 3 dead and hundreds wounded. Each of these killers 
was reportedly radicalized to some degree by online jihadist 
content. And so many other attacks inspired by means of social 
media have, thank God, been thwarted. Indeed, experts tell us 
that throughout last year, social media played some part in the 
radicalization of all of the 60 people arrested in the United 
States for criminal acts in support of ISIS. Again, we may hear 
more about that today. Most recently, of course, the FBI has 
publicly stated that it is ``highly confident'' that the 
Orlando killer, Omar Mateen, was ``radicalized at least in part 
through the Internet.''
    One longstanding aim of the ISIS propaganda machine is to 
attract foreign fighters to ISIS-controlled territory. Often 
ISIS tells its recruits tales of high adventure, joined with 
false narratives of Islamic extremism as a utopia. The bizarre 
images behind me over here,\1\ for example, appear in a ISIS 
film exhorting Muslims around the world to join the Islamic 
State; rather than show ISIS fighters for what they are--
murderers of innocent victims who are themselves overwhelmingly 
Muslim--they are shown playing with laughing children and 
shopping in local marketplaces.
---------------------------------------------------------------------------
    \1\ The images referenced by Senator Portman appears in the 
Appendix on page 49.
---------------------------------------------------------------------------
    Appeals like these have helped draw an estimated 30,000 
foreign fighters, including at least 6,000 Westerners, to take 
up arms with ISIS. The good news is that the Defense Department 
(DOD) reports a significant decrease in the flow of foreign 
fighters to ISIS territory. At the same time, however, ISIS has 
increasingly shifted its propaganda efforts to inciting 
sympathizers to commit acts of terror in the West--including 
right here in the United States.
    Online propaganda, amplified by social media and Peer-2-
Peer (P2P) communication, is now a key weapon in ISIS' arsenal. 
We should, of course, resist oversimplifying the problem. Not 
all radicalization in the United States occurs online, and in-
person interaction often reinforces the process. But unlike the 
more common European pattern of jihadist radicalization in 
clusters, neighborhoods, or in prison, the U.S. threat so far 
is predominantly that of the lone-wolf terrorist--an individual 
radicalized on his own, often in front of his computer screen 
with access to online jihadist content and videos that create a 
sort of virtual training camp.
    In addition to a clear military strategy and vigilant law 
enforcement efforts here at home, the United States and our 
allies need a more robust, coordinated strategy to expose the 
enemy's lies, counter its false narratives, and encourage 
credible voices to tell the truth to those most susceptible or 
receptive to the ISIS lies. And that is true both of foreign 
and U.S. audiences. Although the ISIS online radicalization 
threat is well recognized, there is a range of opinion on how 
best to combat it, and the U.S. Government's efforts are still 
in their early stages, as we will hear about today. Today we 
are going to examine the countermessaging initiatives that show 
promise--and where the government has fallen short and could 
accelerate those efforts.
    In January, the State Department began a revamp of its 
counterterrorism messaging and coordination efforts with the 
launch of what is called the ``Global Engagement Center''--a 
better funded and, at least on paper, more empowered version of 
its predecessor, the Center for Strategic Counterterrorism 
Communications. We have had testimony in this room before 
regarding the Global Engagement Center, and we look forward to 
getting deeper into that today.
    Previous efforts to address this threat have struggled to 
overcome bureaucratic hurdles, unclear authorities, and a lack 
of interagency communication and a unity of effort. These 
structural deficiencies will continue to hinder future 
administrations--both Republican and Democrat--unless they are 
addressed. That is why I recently introduced legislation with 
Senator Murphy to help resolve some of these issues and the 
impact they have on our ability not only to counter propaganda 
and disinformation from extremist groups like ISIS but also the 
equally pressing challenges posed by some nation States and 
their sponsored propaganda.
    The Department of Homeland Security (DHS) also recently 
consolidated its countering-violent-extremism (CVE), efforts in 
a new office call the ``Office of Community Partnerships 
(OCP).'' Again, we have heard about this in this hearing room. 
We look forward to digging deeper today. We will be hearing 
more about these efforts, and I will be interested in exploring 
whether these initiatives are backed by sufficient authorities 
and sufficient resources.
    In addition, social media firms including Facebook and 
Twitter have stepped up their voluntary efforts to police their 
own terms of service, which prohibit incitements to terrorism. 
Twitter has closed more than 100,000 ISIS-linked accounts, for 
instance, and Facebook has actively worked to remove offending 
users while working in various ways to promote content to 
counter jihadist propaganda. These actions have helped to 
degrade ISIS' social media megaphone, according to the Middle 
East Media Research Institute, but its online presence remains 
strong.
    So let us be very clear: To defeat ISIS, it is necessary to 
destroy the enemy where they live and prosper--in Iraq and in 
Syria and elsewhere--in their major cells around the world. 
Online countermessaging is no substitute for a clearly defined 
and vigorously executed military strategy. But a military 
strategy must be reinforced by a coordinated effort to 
undermine and disrupt the powerful disinformation spread by 
Islamic jihadists. Today we are going to hear from three 
Federal agencies involved in that effort, and I appreciate our 
three witnesses before us today. We are also going to hear from 
some distinguished experts who have been engaged on these 
issues for many years.
    With that, I will turn to my colleague Senator McCaskill 
for her opening statement.

             OPENING STATEMENT OF SENATOR MCCASKILL

    Senator McCaskill. Thank you, Chairman Portman.
    I think the topic of today's hearing is extremely 
important. Figuring out how to stop the Islamic State of Iraq 
and the Levant (ISIL)-inspired attacks at home and abroad is 
vital to our national security, and it is a topic on which the 
Homeland Security and Governmental Affairs Committee has an 
important role.
    I would like to particularly note the efforts by Chairman 
Johnson and Ranking Member Carper who have held a number of 
oversight hearings in this Committee on this very topic and who 
have worked on relevant legislation during this Congress.
    This Subcommittee has a long and proud tradition of the 
finest investigative work Congress has ever done, from work on 
war profiteering and Mafia racketeering to the U.N. Oil for 
Food Program and the financial crisis. And contrary to Senator 
Rand Paul's assertion at our cable hearing last month, during 
this Congress the Chairman and I have conducted many in-depth 
bipartisan investigations of government agencies as well as the 
private sector.
    But today's hearing is not a typical PSI hearing. Because 
of the short timeframe of planning for this hearing, we were 
unable to speak with some of the people who I would like to see 
participate in our discussion: social media companies, local 
law enforcement groups, and those, importantly, directly 
involved on the ground with the pilot programs that we are 
currently funding through the Department of Homeland Security. 
Having the opportunity to hear from these other groups is 
especially important because, as today's government witnesses 
will point out, we still have a lot to learn about how to best 
counter the messages of violent extremism in this country from 
ISIL and otherwise.
    The efforts being undertaken by the Department of Homeland 
Security's Office of Community Partnerships and the Department 
of State's Global Engagement Center are just getting off the 
ground. I hope to hear today what their plans are; how they are 
specifically working with the private sector, whether through 
grants, contracts, or other agreements; and how we can best 
support them going forward, while also keeping taxpayers and 
our oversight obligations in mind. This is a chance for 
Congress to do oversight on the front end rather than the back 
end after something has already gone wrong and massive amounts 
of taxpayer dollars maybe have been wasted.
    Further, as we will hear from our witnesses today, it is 
absolutely vital that any effort our government undertakes to 
counter violent extremism is done in partnership with and with 
the full engagement of the Muslim community. After all, this 
was one of the core rationales for establishing the DHS Office 
of Community Partnerships in the first place. In order to 
combat ISIL's propaganda, we must have a healthy, inclusive 
dialogue with Muslim and other community leaders as well as 
ensure that resources are available to families and friends 
that may have concerns about loved ones who have become 
attracted to extremist rhetoric.
    Unfortunately, some of the rhetoric we hear from 
politicians, including the national leader of the Republican 
Party and their presumptive nominee for President, is 
completely and utterly at odds with this policy approach. 
Instead of inclusivity, the presumptive Republican candidate 
for President is proposing that we bar all Muslims from 
immigrating to the United States, even those who are trying to 
escape the horrors of ISIL abroad. He also campaigns on the 
suggestion that the entire Muslim community is complicit in 
violent extremism, going so far as to suggest that Muslim 
neighborhoods must be ``policed'' and subjected to special 
surveillance for no other reason than their religious belief.
    Not only is this strategy in opposition to recommendations 
from every expert that our staffs have spoken with, it is also 
in complete conflict with American principles and values. And, 
most importantly, it would actually make the United States of 
America less safe.
    This extremist rhetoric plays right into ISIL's hands and 
supports its propaganda's key message that this country hates 
Muslims, making it more difficult for the government partners 
we have today in this country to work with the Muslim community 
to combat extremism.
    Finally, as the mass shootings we hear about on a far too 
regular basis remind us, we also need to make sure guns stay 
out of the hands of terrorists and mentally unstable 
individuals from all political and religious backgrounds. This 
is a simple, common-sense idea that nearly all Americans 
support.
    Regrettably, we are still not ready to pass small steps, 
reasonable and sensible, to keep guns out of the hands of 
terrorists and making sure terrorists are not exploiting the 
online and gun show loopholes for background checks. So if we 
really want to counter violent extremism, we also need to spend 
less time stirring up anti-Muslim rhetoric and more time 
working on these issues and working with the majority of the 
Muslims who are peaceful in this country and around the world.
    Although the work of the agencies represented at this 
hearing is important and is one part of the strategy to defeat 
extremism in this country, there are steps we can take 
immediately to make us safer starting today.
    I thank the witnesses for being here, and I look forward to 
their testimony.
    Senator Portman. Thank you, Senator McCaskill.
    We will now call our first panel of witnesses for this 
afternoon's hearing.
    Michael Steinbach is the Executive Assistant Director of 
the National Security Branch of the Federal Bureau of 
Investigation. Previously, Mr. Steinbach held multiple 
positions with the FBI, including serving in Afghanistan as the 
FBI's deputy on-scene commander for operations and as the 
assistant section chief for international terrorism operations 
in the Counterterrorism Division. Thank you for being here.
    George Selim some of you know from his exposure to the 
Committee through his work at the Department of Homeland 
Security. He is Director of the Office of Community 
Partnerships at DHS. He also leads the Countering Violent 
Extremism Task Force. Prior to his time at DHS, Mr. Selim 
worked at the White House on the National Security Council 
staff as Director for Community Policing, where he was 
responsible for policies related to domestic and global 
security threats. Before the White House, Mr. Selim was a 
Senior Policy Adviser at DHS' Office for Civil Rights and Civil 
Liberties. Thank you for being here.
    Meagen LaGraffe is the Chief of Staff for the Global 
Engagement Center at the State Department, which was developed 
to disrupt and undermine extremism propaganda, as we talked 
about. Prior to joining the State Department, she was Chief of 
Staff for Special Operations and Low-Intensity Conflict in the 
Office of the Secretary of Defense. Ms. LaGraffe previously 
served as Special Assistant to the Secretary of Homeland 
Security and as an aide to Senator Ted Kennedy.
    I appreciate all of you for being here this afternoon and 
look forward to your testimony. It is the custom of this 
Subcommittee to swear in all of our witnesses, so at this time 
I would like you to stand and raise your right hand. Please 
repeat after me. Do you swear that the testimony you are about 
to give before the Subcommittee will be the truth, the whole 
truth, and nothing but the truth, so help you, God?
    Mr. Steinbach. I do.
    Mr. Selim. I do.
    Ms. LaGraffe. I do.
    Senator Portman. Great. Let the record reflect that the 
witnesses answered in the affirmative. And to our witnesses, 
all of your written testimony will be printed in the record in 
its entirety. I would ask you to keep your comments to 5 
minutes so that we will have a good opportunity for some 
questions and answers. Mr. Steinbach.

    TESTIMONY OF MICHAEL STEINBACH,\1\ EXECUTIVE ASSISTANT 
     DIRECTOR, NATIONAL SECURITY BRANCH, FEDERAL BUREAU OF 
                         INVESTIGATION

    Mr. Steinbach. Good afternoon, Chairman Portman, Ranking 
Member McCaskill, and Members of the Subcommittee. Thank you 
for the opportunity to appear before you today to discuss the 
challenge of combating the widespread reach of terrorist 
propaganda.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Steinbach appears in the Appendix 
on page 51.
---------------------------------------------------------------------------
    Preventing terrorist attacks remains the FBI's top 
priority. In today's hyperconnected world, this mission is 
tightly intertwined with technology and the ability it provides 
to reach out to anyone, anywhere, anytime.
    Just as we use technology throughout the course of our day, 
so do the bad guys. The widespread use of technology propagates 
the persistent terrorist message to attack U.S. interests, 
whether in the homeland or abroad.
    Many foreign terrorist organizations use various digital 
communication platforms in an effort to reach individuals they 
believe may be susceptible and sympathetic to the message. But 
no group has been as successful at drawing people into its 
message as ISIL. ISIL's extensive reach through the Internet 
and social media is most concerning as the group continues to 
aggressively employ the latest technology as part of its 
nefarious strategy.
    ISIL's messaging blends both officially endorsed 
sophisticated propaganda with that of informal peer-to-peer 
recruitment through digital communication platforms. No matter 
the format, the message of radicalization spreads faster than 
we imagined just a few years ago. Like never before, social 
media allows for overseas terrorists to reach into our local 
communities to target our citizens as well as to radicalize and 
recruit.
    From a threat perspective, we are concerned with three 
areas: those who are inspired by terrorist propaganda and feel 
empowered to act out and support; those who are directed by 
members of foreign terrorist organizations to commit a specific 
directed act in support of a group's ideology or cause; and 
those who are enabled to act after gaining inspiration from 
extremist propaganda and communicating with members of foreign 
terrorist organizations who provide guidance on method or 
target.
    A bad actor can fall into any of the above categories or 
span the spectrum, but in the end the result is the same: 
innocent men, women, and children killed, and families, 
friends, and whole communities left to struggle in the 
aftermath.
    To identify and disrupt these bad actors, we must overcome 
two challenges: volume and encryption.
    The issue of volume is no surprise to those of you who have 
heard Director Comey's remarks over the last year and a half. 
The digital world knows no bounds. We do not just look at a 
person's physical associates, but now we must, too, look to 
their digital connections and from that assess who is a passive 
connection versus an active connection.
    The digital world has fostered a global neighborhood of new 
people to meet and new ideas to follow. It is up to us to sort 
through the noise and identify those signals that are most 
concerning. Sifting through the numerous online monikers and 
communication platforms is not a light lift. It requires both 
technical capabilities and eyes-on analysis. This takes time--
time we do not always have.
    Not only do we face the overwhelming volume of information 
we have uncovered; the second challenge is the lack of 
accessible information when a person is using encrypted 
communications. Encryption takes many forms. Encryption hides 
stored digital communications, sometimes it masks the trail of 
communications, and at other times it erases the content. In 
many cases, we have seen concerning individuals connect via 
publicly available communication platforms and then switch to 
private encrypted applications. These apps make conversations 
more secret than ever before. We know that bad actors have used 
encrypted communication platforms prior to conducting attacks, 
as was the case in Garland, Texas, in May 2015, where to this 
day we still do not know the content of the pre-attack text 
messaging.
    To successfully combat today's threats, we must adapt and 
confront these challenges. We are not in this alone. We rely 
heavily on the strength of our Federal, State, and local 
partners as well as our international partnerships. The key 
part of these partnerships includes an emphasis on streamlining 
information sharing. In today's threat environment, it is not 
sufficient to say information sharing is important. It is the 
speed of information sharing which is critical to our success. 
Law enforcement and the U.S. intelligence community (IC) will 
continue to utilize the Joint Terrorism Task Forces (JTTF) and 
the fusion centers to do just that. There is not a body of 
people more unified and more dedicated to the singular mission 
of protecting our communities. Having all member agencies 
collocated, working the same threats, and bringing their 
agency's skills and resources collectively to work the 
investigations is powerful. We must now work to develop the 
same success internationally.
    Chairman Portman, Ranking Member McCaskill, and members of 
the Subcommittee, I thank you for the opportunity to testify 
concerning terrorists' use of the Internet and social media. I 
am happy to answer questions you may have.
    Senator Portman. Thank you, Mr. Steinbach. Mr. Selim.

 TESTIMONY OF GEORGE SELIM,\1\ DIRECTOR, OFFICE FOR COMMUNITY 
    PARTNERSHIPS, U.S. DEPARTMENT OF HOMELAND SECURITY, AND 
    DIRECTOR, INTERAGENCY TASK FORCE ON COUNTERING VIOLENT 
                           EXTREMISM

    Mr. Selim. Good afternoon. Thank you, Chairman Portman, 
Ranking Member McCaskill, and distinguished Members of the 
Subcommittee, for the opportunity to testify here today. I 
welcome the opportunity to appear before you to discuss 
priorities and key actions that the Department of Homeland 
Security is conducting to address ISIL and other terrorist's 
attempts at online recruitment and radicalization to violence.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Selim appears in the Appendix on 
page 54.
---------------------------------------------------------------------------
    I have considerable personal and professional equities in 
protecting our homeland. By way of background, I have spent 
over a decade as a civil servant at the Department of Homeland 
Security. I have also served as the Department of Justice (DOJ) 
and on the National Security Council staff at the White House. 
In addition, I am a commissioned officer in the United States 
Navy Reserve and view the call to public service as one of the 
greatest honors our country offers all people, regardless of 
race, religion, or nationality.
    As Secretary Johnson has stated, we are in a new phase of 
the global terrorist threat. The threat today is more 
decentralized, more complex, and difficult to detect. We have 
moved from a world of terrorist-directed attacks to a world of 
increasingly terrorist-inspired attacks. ISIL and other 
terrorist groups are turning to the Internet to inspire lone 
offenders. This is a pattern we saw last December in San 
Bernardino and most recently in Orlando.
    By their nature, attacks involving self-radicalized 
individuals are harder for intelligence and law enforcement 
officers to detect, and they could occur with almost little or 
no warning. So what are we doing about it?
    The threat from homegrown violent extremism requires going 
beyond traditional counterterrorism approaches and focusing not 
just on mitigation efforts but also on preventing and 
intervening in the process of radicalization. This prevention 
framework is known as ``countering violent extremism,'' or the 
acronym CVE.
    In 2015, Secretary Johnson announced the creation of the 
Office for Community Partnerships at DHS. This is the office 
that I lead and is focused on the Department's efforts in 
countering violent extremism and working to build effective 
partnerships with communities across the country for that 
explicit purpose. Our CVE efforts depend on working in a 
unified and cohesive manner across the U.S. Government. That is 
why we have established the CVE Task Force, currently 
headquartered at DHS, to organize all CVE Efforts across the 
U.S. domestically. This new task force could not be possible 
without the strong partnership from the Department of Justice 
who have appointed my Deputy Director and several key staff on 
the task force.
    A unified efforts is necessary given the threat environment 
we face today. Terrorist groups such as ISIL have undertaken a 
deliberate strategy of using social media to reach individuals 
susceptible to their message and recruit and inspire them to 
violence. The Office of Community Partnerships and the CVE Task 
Force depend on our stakeholder partners to reach these 
individuals before they become radicalized.
    Our partners in Federal, State, and local governments and 
law enforcement, civic and faith-based organizations, 
educators, social service organizations, mental health 
providers, and the private sector are essential to this 
mission. Our efforts are federally driven, but they are locally 
focused. Our goal is to empower credible voices within 
communities that are targeted by violent extremists.
    Research has proven that young people, Millennials, victims 
of terrorists, and community-based organizations are the most 
credible voices to discourage those in danger of being 
radicalized to violence, and our role in the Federal Government 
should be to give those community partners the tools and 
support to raise their voices. Some of those tools can be 
provided by key technology companies. We are engaging with the 
private sector to encourage efforts to counter ISIL online as 
well as other groups.
    The Department of Homeland Security and the Department of 
Justice, including Secretary Johnson and Attorney General 
Lynch, have also engaged with social media industry 
representatives in the past year-plus. One of our efforts, the 
Peer-2-Peer Challenging Extremism competition, empowers 
university students around the world to develop their own 
authentic narratives to counter violent extremist recruitment 
through social media.
    Facebook became the first technology partner to join the 
Peer-2-Peer project in the summer of 2015. Facebook's 
participation has allowed the initiative to expand to many more 
international schools. In addition to the Peer-2-Peer program, 
the CVE Task Force will include a dedicated communications and 
digital strategy team. We hope to continue to work with the 
private sector to ensure our country's most transformative 
technologies and innovations can be harnessed to promote and 
enable civil society messages of tolerance, inclusion, and 
pluralism as a means of degrading the appeal of the ISIL brand.
    Our efforts to develop locally driven, prevention-based CVE 
frameworks incorporate both online and in-person efforts. Thank 
you for the $10 million of CVE grant funding that Congress has 
appropriated and the fiscal year (FY) 2016 Omnibus 
Appropriations Act. We can now take our CVE efforts across the 
country to the next level.
    Just this morning, Secretary Johnson announced that just 
today the fiscal year 2016 CVE grant program has been 
officially launched and the Notice of Funding has been issued 
this morning. This is the first Federal assistance program 
devoted exclusively to providing local communities with 
resources to counter violent extremism in our homeland. This 
grant program was developed by the DHS Office of Community 
Partnerships in conjunction with our partners at the Federal 
Emergency Management Agency (FEMA). This grant opportunity is 
an important part of our ongoing work to build a comprehensive 
CVE model that incorporates both cyberspace and community 
spaces.
    Mr. Chairman, thank you for the opportunity to speak here 
today and for your continued support at DHS. I look forward to 
any questions you and the Committee may have.
    Senator Portman. Thank you, Mr. Selim. Ms. LaGraffe.

   TESTIMONY OF MEAGEN M. LAGRAFFE,\1\ CHIEF OF STAFF TO THE 
 COORDINATOR AND SPECIAL ENVOY, GLOBAL ENGAGEMENT CENTER, U.S. 
                      DEPARTMENT OF STATE

    Ms. LaGraffe. Chairman Portman, Ranking Member McCaskill, 
Members of the Subcommittee, thank you for the opportunity to 
testify and answer your questions today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Lagraffe appears in the Appendix 
on page 59.
---------------------------------------------------------------------------
    I am here to discuss our government's international efforts 
to counter violent extremist propaganda, online, in social 
media, as well as in traditional media. This is a critical 
effort, especially when it comes to our whole-of-government 
efforts to degrade and destroy ISIL because it is clear that, 
to our enemy, the information battlespace is as important as 
the physical battlespace.
    Prior to March of this year, I served as the Chief of Staff 
in the Office of Special Operations and Low-Intensity Conflict 
at the Pentagon. I feel confident that our U.S. military and 
coalition has significant capabilities to eliminate militants 
from the battlefield and is doing so each and every day. Daesh 
has already lost nearly half of its territory in Iraq and 20 
percent in Syria.
    At the same time, we must also confront the messages that 
these groups push out daily to recruit people and inspire them 
to violence. Addressing radicalization to violence and 
recruitment in the information battlespace is a key piece of 
any serious, meaningful, and enduring approach to countering 
violent extremism long-term.
    To meet that challenge, President Obama signed an Executive 
Order in March which created the Global Engagement Center, 
revamping our countermessaging strategy.
    Prioritizing countermessaging is nothing new in the 
national security arena, and, in fact, it is not even new in 
this administration. The Center's predecessor organization, the 
Center for Strategic Counterterrorism Communications (CSCC), 
focused on al-Qaeda propaganda. But while al-Qaeda was 
producing videos that took months to get out, our adversary 
today is using social media in ways not seen before.
    The quality and volume of violent extremist messaging has 
advanced dramatically since our predecessor organization was 
established 5 years ago, or even from the time when Daesh began 
metastasizing into its current form 3 years ago.
    The Global Engagement Center is charged with coordinating 
integrating, and synchronizing all government communications 
directed at foreign audiences abroad used to diminish the 
influence of violent extremists.
    The Center is designed to be as agile and as adaptive as 
our adversary. We are armed with new authorities, new 
personnel, and cutting-edge technology.
    The Center is using state-of-the-art digital analytics 
tools from the intelligence community, from the Defense 
Advanced Research Projects Agency (DARPA), and from the private 
sector. These tools and technologies help us tailor our 
messages to our audience as well as measure those messages' 
effectiveness.
    Importantly, the President's Executive Order grants the 
Center expanded hiring authorities as well, allowing us to hire 
leaders and experts from the private sector to join us in this 
effort.
    When fully operational, the Center will comprise staff from 
the private sector as well as the Departments of Defense, 
Treasury, Justice, State, Homeland Security, and the 
intelligence community. Working across these agencies, the 
Center is already identifying efficiencies and opportunities in 
the messaging space.
    Even more substantial than changes to personnel or to 
budgets, the Center is taking a fundamentally new approach in 
the information battlespace. We have pivoted toward partner-
driven messaging and partner-driven content. While the U.S. 
Government has a good message to tell, we are not always the 
most credible voice to tell it.
    Instead, there is an abundance of credible and diverse 
voices across the Middle East, Africa and Europe, their 
governments, non-governmental organization (NGO's), and civil 
society groups, all of whom we are now leveraging in this 
fight. We are not publicizing who many of our partners are, of 
course, so that we do not undermine their credibility, but I 
would like to give you one example.
    In Kosovo, we recently completed a training program with 
local NGO's, designed to amplify credible voices there. We ran 
workshops to train local influencers about designing and 
executing their own messaging campaigns. Kosovo is a compelling 
location for this kind of work because it has not only the 
highest number of foreign terrorist fighters in Europe, it also 
has an active NGO community focused on this very issue.
    Using a partners-first, data-driven approach, the Center is 
particularly focused on changing audience behavior rather than 
changing attitudes and beliefs. While we may have less success 
altering what an individual thinks, we can certainly be more 
effective at preventing individuals from turning those beliefs 
into violence.
    I appreciate this Committee's oversight and continued 
support as we revamped our fight against violent extremism in 
the information battlespace. As you all know, any long-term 
success in this space cannot focus exclusively on killing 
terrorists. We also have to stem the recruitment of new ones.
    Thank you very much for your time, and I am happy to answer 
any questions.
    Senator Portman. Thank you, Ms. LaGraffe, and good point. 
And I appreciate the testimony from all three witnesses and 
look forward to the opportunity to get into a more in-depth 
discussion in questions and answers.
    We have one business item we need to dispose of here, so I 
apologize for this interruption. We are going to take a quick 
break and report a nomination to the floor. I want to thank the 
Chairman of the full Committee, Senator Johnson, who is with us 
here today, for his courtesy in providing us this hearing room 
today for our important hearing. This will just take a minute, 
so everybody please keep their seats.
    With that, the Subcommittee will be in recess subject to 
the call of the Chair.
    [Recess.]
    This hearing is now back in session, and, again, I thank 
the witnesses very much for their testimony, and we look 
forward to having a good back-and-forth.
    We have a number of Members here, so I am going to be very 
short, knowing that I am going to be around until the end of 
this hearing and have a chance to ask you questions. But let me 
just start, if I could, with you, Mr. Steinbach, just very 
briefly.
    Your boss, the Director of the FBI, said last October that 
he believes the main threat facing the United States comes from 
lone-wolf terrorists who are radicalized online. Is that still 
the FBI's assessment?
    Mr. Steinbach. Yes, sir, it is.
    Senator Portman. Thank you. I think that is important to 
lay that as a predicate for our questions. Senator McCaskill.
    Senator McCaskill. I just also have some questions for Ms. 
LaGraffe. Part of the problem we face from a messaging 
standpoint is the efforts of our government to message and 
realizing that our government is probably not the right 
messenger if we are going to combat an ideology that sees our 
country as part of the problem, not part of the solution. They 
see that wrongly, I might add, but nonetheless that is what 
they see.
    There is a built-in bias against truthfulness about 
anything that comes from the U.S. Government. So to get around 
that, I understand that you and your predecessor are developing 
partnerships with voices perceived as more credible to 
disseminate the counter violent extremism message. What I am 
trying to understand is how this works from an oversight 
perspective. Are we pushing money out to groups? Are we sending 
them checks? Are we in a contractual relationship with them as 
contractors? How is this actually working in terms of how money 
is being passed along to messengers that we think would be more 
effective?
    Ms. LaGraffe. Thank you, Senator, for your question. You 
are absolutely correct. The Global Engagement Center is focused 
on building a network of partners around the world, and as I 
mentioned, those partnerships take many forms. We partner with 
foreign governments; we partner with NGO's; we partner with 
local civil society groups as well.
    With that in mind, the partnerships we currently have, we 
use a variety of different funding streams in order to make 
sure that these groups are empowered and armed with the right 
tools and resources to get these messages out. For example, if 
I may, we have a foreign government partnership called the 
``Sawab Center.'' It is a joint message----
    Senator McCaskill. UAE.
    Ms. LaGraffe. Exactly, and that is a partnership where we 
have provided technical assistance and staff so that the 
government can then provide their own content and their own 
messaging across nearly two dozen countries in the region. That 
is one example.
    Senator McCaskill. That is a government. But aren't we also 
partnering with private groups and NGO's?
    Ms. LaGraffe. We absolutely do.
    Senator McCaskill. How do we get them money?
    Ms. LaGraffe. I think one of the benefits of having the 
Global Engagement Center as an interagency group, we work very 
closely with not only our colleagues within the State 
Department but more broadly within the broader interagency to 
identify funding streams for potential projects and shared 
priorities. So the Global Engagement Center is not a 
grantmaking organization. We work very closely with the 
interagency to identify appropriate funding streams.
    Senator McCaskill. So the money you are getting is not 
going to partners?
    Ms. LaGraffe. Not exclusively. I would like to get you the 
numbers of how exactly our budget breaks down in terms of what 
money we give out via contracts. But, again, the Global 
Engagement Center itself does not offer grants.
    Senator McCaskill. I understand, but I am trying to figure 
out how we are funding this, and we cannot get a straight 
answer.
    Ms. LaGraffe. OK.
    Senator McCaskill. Our staff has tried.
    Ms. LaGraffe. OK.
    Senator McCaskill. I have watched money go for good causes, 
and it disappeared. And I am trying to get a handle on how we 
are actually doing this. I mean, it all sounds great, and I 
want it to be great. But I also know that if we are not paying 
attention as to who we are paying and how, that is how money 
walks away.
    Now, the second part of my question is performance metrics. 
You said you were data driven. Do you have data you can share 
with us? Have you set up performance metrics for these various 
groups that we are partnering with on messaging? How are we 
ever going to figure out if what they are doing is effective? 
Because it is very hard to quantify what you prevent.
    Ms. LaGraffe. We are currently building our data analytics 
shop so that we cannot only do measuring on the front end of 
any messaging campaign to identify what particular messages 
might resonate with a particular audience, but also on the back 
end of any campaign measure our effectiveness. So thus far, 
what that looks like is making sure we know the potential reach 
for a particular message and how that message plays out over 
time.
    For each campaign, we sort of build in, we bake in an 
expectation for analysis on the back end so we can continue to 
refine our messages each and every time we----
    Senator McCaskill. Well, I would love to see the data. I 
would love to see how that data is actually being set up and 
how it is being collected.
    Ms. LaGraffe. OK.
    Senator McCaskill. So there are two assignments: one, how 
are we funding these efforts, where is the money coming from, 
who is getting it, and what form is it taking; and, second, the 
data that will help us figure out if this money is doing any 
good.
    Ms. LaGraffe. Absolutely.
    Senator McCaskill. Thank you.
    Senator Portman. Senator Johnson.
    Chairman Johnson. Thank you, Mr. Chairman.
    Ms. LaGraffe, you talked about the progress we have been 
making on the ground in Iraq and Syria, 50 percent territory 
reclaimed in Iraq, 20 percent in Syria. And yet the Central 
Intelligence Agency (CIA) Director Brennan testified before the 
Senate Intelligence Committee a couple of weeks ago and said 
that ISIS remains a formidable, resilient, and largely cohesive 
enemy and that we have not reduce their terrorist capability 
and global reach. Do you agree with that assessment?
    Ms. LaGraffe. Senator, I can only speak from the messaging 
perspective, and if we are using the number of foreign 
terrorist fighters as a measure of efficacy of policy, I would 
say that we see promising signs of having an effect in the 
messaging space against the enemy in Iraq and Syria.
    Chairman Johnson. Mr. Steinbach, do you agree with CIA 
Director Brennan's assessment that we have not reduced their 
terrorism capability and global reach?
    Mr. Steinbach. I agree with that assessment completely. 
While we have reduced the space in Syria in Iraq, their reach 
globally with their affiliates is just as devastating, if not 
more so.
    Chairman Johnson. We talk about lone wolves. Now we are 
starting to see wolf packs, correct? We have witnessed not only 
the inspiration, these attacks being inspired by ISIS, but now 
we have evidence of them actually directing, for example, the 
attack in Brussels and probably in Istanbul. Is that correct?
    Mr. Steinbach. I think ISIL has for some time now focused 
on an external piece, which includes directed attacks in Europe 
and in other places, so yes.
    Chairman Johnson. Do you believe that increased activity in 
the 22 months since President Obama declared our goal toward 
ISIS was to degrade and defeat them? That was 22 months ago. 
Have they increased their ability using social media?
    Mr. Steinbach. So I think from my perspective--and I stated 
this before--that as we squeeze ISIL in space in Syria and 
Iraq, they will seek to reach out and lash out where they can. 
So my perspective is that as we have success on the ground in 
Syria and Iraq, we may see a more dangerous world in the short 
term because they will try to message that to their advantage 
by conducting attacks worldwide.
    Chairman Johnson. The analogy I have been using is that of 
a beehive. Let us say you have a beehive of killer bees in your 
back yard. I think the solution is obvious. You take out the 
hive, you kill the bees. But what we have been doing is we have 
been poking it with a stick. We have maybe been damaging the 
hives, but the problem is we have stirred up the bees, and they 
are leaving the hive, and they are setting up new hives in 
Libya, Afghanistan, and other places. Correct? Is that a 
relatively accurate analogy and assessment?
    Mr. Steinbach. I would say that they are definitely pushing 
out a campaign to develop more affiliates, like you mentioned, 
all those places you mentioned--Afghanistan, Indonesia, and 
other places. They continue to expand globally.
    Chairman Johnson. So we have not reduced their capability. 
There was an interesting article in the New York Times last 
week, a pretty good analysis that said since September 2014, 
again, the month that President Obama declared our goal to 
defeat ISIS, there have been 97 ISIS-inspired or--directed 
attacks outside of Syria and Libya--or Syria and Iraq, over 
1,200 innocents killed in those attacks. That is a pretty 
frightening assessment, is it not?
    Mr. Steinbach. I would agree. Yes, sir.
    Chairman Johnson. I really have no further questions.
    Senator Portman. Thank you, Chairman Johnson.
    Senator Carper has left us. Senator Ayotte.

              OPENING STATEMENT OF SENATOR AYOTTE

    Senator Ayotte. Thank you, Chairman.
    Mr. Steinbach, to the point that Senator Johnson was 
making, as we look at the metastasizing essentially of ISIS, 
you see them in Libya, Philippines, Sinai, Somalia, and 
branching out in other areas. And then you see the pattern of 
attacks. You see Istanbul, Brussels, Paris, Saudi Arabia, 
obviously our own country, San Bernardino, Orlando. Aren't they 
just expanding the battlefield?
    Mr. Steinbach. I think they are expanding the battlefield, 
but I think they are doing it because of the lack of success 
they felt in Syria and Iraq. And I think they will continue--if 
we squeeze them in Syria and Iraq, they will continue to seek 
other places where ungoverned space or places where they can 
thrive and conduct attacks.
    Senator Ayotte. And what I wanted to ask you, in terms of 
the tools that the FBI needs, as we look at the use of 
social media--and you talked about this a little bit in your 
testimony--as we look at the use of the Internet, some of the 
basic tools, I would imagine that in every terrorism 
investigation now not only in the preventative context of 
knowing what is happening online, but also, unfortunately, when 
we have had an event, it is critical that the FBI also has 
those tools in advance to prevent terrorism attacks and if we 
have one, God forbid, that you can investigate them. And, 
recently, on the Senate floor, we had a vote on an amendment 
offered by Senator McCain which would have given the FBI 
National Security Letter authority with respect to electronic 
communications, transactional records, and terrorism 
investigations. And, unfortunately, that vote failed, as I 
understand, 58-38.
    How important is it that you have that ability to do that? 
Because having been a prosecutor myself, and was surprised to 
learn of what I understand was an oversight in leaving this 
language out of the statute, that we could not even get that 
passed on the Senate floor, because in your basic online 
investigation of a child predator, I could get that information 
as a prosecutor in a criminal case. And right now regarding the 
FBI, we are making it difficult for you to get it in a 
terrorism investigation. So how important is it that we give 
you tools like that?
    Mr. Steinbach. So as you stated, ma'am, I think that the 
world that we live in today, the threat starts online in many 
cases. So we need a robust set of tools to focus on the online 
space. We need open-source tools as well as high-side data 
sets. We need to lay those over each other to fully identify 
what we have. Tools like the National Security Letter (NSLs) 
and the ECTR fix allow us to very agilely identify not only the 
bad guy but the bad guy's network. Twenty years ago, we had 
telephones, and you looked at the telephone, you looked at the 
to-from to see who the bad guy was communicating with. Now, in 
today's world, with the spread of social media, with the spread 
of the online threat, we need those tools in the online space 
to identify who the bad guys are contacting.
    Senator Ayotte. And right now essentially where you are is 
you can get the telephone records, you can get the financial 
records, but you cannot get the basic Internet records--which 
do not involve content, by the way, but that I could get if I 
were prosecuting a basic criminal case. So I hope we take this 
back up because I know that this is Director Comey's No. 1 
priority, and, this is one where it is kind of hard to believe 
in the context that we live in that the Senate did not pass 
this. So I hope we do this again and take it back up and pass 
it in light of what we are hearing today.
    I wanted to also follow-up, as you think about the tools 
that you need, and looking at what happened recently in 
Orlando, can you share with us at all in terms of how the 
Internet played in the terrorism attack that occurred in 
Orlando and what lessons we have learned in terms of 
investigative tools that would be helpful in the context of 
that? And also in San Bernardino? I think one of the challenges 
we are facing here is we obviously want to engage people online 
to prevent this, but also have good intelligence up front if an 
attack is coming to be able to stop it before it happens.
    Mr. Steinbach. So I think the challenge we face today is 
that we start in a place where people are passively consuming 
content, which, of course, is not against the law. So our 
challenges, as I mentioned in my opening comments, is to look 
through the volume of individuals who are online consuming, 
passively consuming this material, and look for those 
individuals who are doing more than just passively consuming 
that online content who have expressed an intent to do harm.
    So when we go through this volume, we have to have tools 
that help us identify trends, patterns, so that we can then lay 
over our deeper-dive analytics to reach into those particular 
cases, to figure out what the noise is and what the signals 
are, to identify the subjects away from just people exercising 
their constitutional right to consume and repost material. That 
is the challenge we are in, and the tools we have are a set of 
tools that will need to be continually expanding as technology 
changes. We need to, on a regular basis, reassess exactly what 
tools we have, both in open source and on the high side, and 
make sure they are robust enough to address the threat.
    Senator Ayotte. My time is up, but just to be clear, the 
individual in Orlando was consuming this type of information, 
as I understand it.
    Mr. Steinbach. The individual in Orlando was consuming 
material, yes.
    Senator Portman. Senator Lankford.

             OPENING STATEMENT OF SENATOR LANKFORD

    Senator Lankford. Thank you, Mr. Chairman.
    Ms. LaGraffe, can I pick up where Senator McCaskill left 
off on this? It is extremely important to us to get some kind 
of data analytics, the metrics for how the different outside 
sites are evaluated, and we are all for trying to get multiple 
hooks in the water to be able to help other people, help us 
with our messaging and to make it clear. Trying to determine 
where those dollars go and how they are being well spent by the 
taxpayer is extremely important.
    With that, you had mentioned a lot about outside sources 
and mentioned a lot about--I am sorry, a little bit about some 
of the things the State Department is doing specifically. I 
want to ask you about how you are evaluating the ``Think Again 
Turn Away'' Twitter page and some of those internal sites that 
the State Department is running, compare that to some of the 
outside--because my understanding that ``Think Again Turn 
Away'' site is about a $5 million investment to be able to do 
that Twitter page. So help me understand value in metrics and 
evaluation.
    Ms. LaGraffe. ``Think Again Turn Away'' was a product that 
was produced by our predecessor organization. We no longer use 
``Think Again Turn Away.'' As I mentioned in my opening 
statement----
    Senator Lankford. Why? Because that had to be a metric-
driven piece, too, that helps us understand how things were 
evaluated.
    Ms. LaGraffe. As I mentioned in my opening statement, when 
the CSCC, our predecessor organization, was stood up, it was 
designed to fight a different enemy in a different time. We as 
the Global Engagement Center (GEC) are now fighting a more 
agile enemy, Daesh, in a social media space. So we have moved 
away from some of the direct online engagement of our 
predecessor organization.
    I think that that is a reflection of the kind of analysis 
we are trying to build into our organization. Inevitably, there 
will be things that we do not do well and we want to adjust, be 
agile, move on, and get better.
    Senator Lankford. So tell me the process of how you 
evaluated, for instance, that site, other sites, things that 
were internal, to make the decision we are going to turn this 
off and not do this, we are going to turn in a different 
direction? Tell me about the process of how that decision is 
made.
    Ms. LaGraffe. For the Global Engagement Center, when we are 
preparing our proposed messaging, as I mentioned, we do 
analytics on the front end to assess the target audience 
susceptibility as well as doing analytics on the back end of 
every campaign to see the reach and resonance of what we are 
doing.
    Senator Lankford. That will help us. We want to get a look 
at some of those analytics and see how things are evaluated so 
we can also participate just in that conversation, just as good 
stewards with it.
    Mr. Steinbach, good to see you again. Thank you for all 
your work. Thank you for all of your work in this area, by the 
way.
    Mr. Steinbach, I want to just run back through the past 5 
days and some of the things that are happening internationally 
and here in the United States, because social media played a 
part in all of these, or at least had some connection with an 
ISIS threat.
    In Indonesia, in the last 24 hours, in Saudi Arabia, 48 
hours ago, three different, separate attacks there. In Iraq, 
250 people dead in one attack in Baghdad. In Bangladesh, 20 
people at least that we know of that are dead. And then, on 
Friday, something that I know you did not miss but a lot of 
Americans missed, the FBI picked up a gentleman names Mohamed 
Jalloh, and he was a person plotting an attack similar to a 
Fort Hood attack here in the United States that seems to be 
self-radicalized online by watching videos of Anwar al-Awlaki. 
That could have been a very different day for America, Friday, 
but the FBI was engaged.
    What can we learn just about the engagement of that 
particular or things like what happened with Mohamed Jalloh and 
ways that social media or outside sources help influence him?
    Mr. Steinbach. Thank you, sir. So as I mentioned in my 
opening remarks, in general, we have three types of attacks--or 
three types of plots: directed, enabled, and inspired. And, of 
course, the largest threat to the United States is that HVE 
subset, the group that is inspired or enabled to conduct an 
attack and that are, quite frankly, the hardest because they 
are not communicating. So as Director Comey has spoken in the 
past, we have roughly 1,000 of these HVE cases across the 
country. They are difficult at times, and we need to use social 
media to the extent possible. As was mentioned, the majority of 
our cases last year, the arrest, all had significant aspects in 
social media. Many of the cases began with an anonymous online 
moniker, and so we need to understand that that is the dynamic 
of the world we live in.
    So as we focus on the HVE threat, we need to focus on the 
online space so that we can properly identify and predicate 
investigations and then use all the tools that we are afforded, 
all the tools in our tool chest to quickly act on individuals 
who have the intent and stop them before they obtain that 
capability to conduct an attack.
    Senator Lankford. So a way to be able to guess at this 
point for the FBI, cases like Mohamed Jalloh, that have 
happened in the past year where the FBI learns about this 
individual, self-radicalized online, preparing to actually 
carry out an attack, and then there is an engagement by the 
FBI.
    Mr. Steinbach. So I think the most concerning trend that we 
have seen in the past year when we identify these individuals 
online is the speed with which they mobilize. So that flash-to-
bang effect you have heard us talk about is going now in days, 
even weeks, as opposed to months and years. That for us is a 
very concerning fact. We have to quickly identify and work to 
mitigate the threat faster than we had to do even 2 years ago.
    Senator Lankford. Thank you.
    Senator Portman. Thank you, Senator Lankford.
    We have a vote that has been called, and so we have a short 
amount of time. We are going to try to get three people in here 
quickly. We have Senator Carper and then Senator Heitkamp and 
then Senator Baldwin. And if any member wants to run over and 
vote and come back, we will keep this going. Otherwise, we will 
recess briefly, have the votes, and come back. Senator Carper.
    Senator Carper. Let me yield to the other Senators. Thanks.
    Senator Portman. Senator Heitkamp.

             OPENING STATEMENT OF SENATOR HEITKAMP

    Senator Heitkamp. Thank you. Thank you, Mr. Chairman, and 
thank you, Mr. Chairman.
    Two issues, and I want to thank you for coming over to my 
office, Mr. Selim, and briefing us on the kinds of efforts that 
we can engage in locally, with local law enforcement, with 
local communities, the need to have--what I would call it--a 
``force multiplier.'' There are not enough of you to actually 
be out there when we are talking about volume. Obviously, 
encryption is a unique issue, but certainly we can do more to 
multiply the force. And I think the other piece of this is best 
practices, what I would call a ``best practice kind of model.'' 
When we did training on school shootings when I was Attorney 
General (AG), we did trainings and did major initiatives on 
fighting methamphetamines. We are in the process now on 
opioids. We need to have the ability to, No. 1, say these are 
tactics and strategies that work, this is what we are going to 
request of and engage with local law enforcement and local 
communities, faith-based communities. We talked a little bit 
about the information that we know of in Canada and how Canada 
engages in anti-radicalization kinds of efforts.
    And so, No. 1, what are we doing, George, in terms of 
multiplying the force by working with local law enforcement, 
working with local communities? And what message should we all 
take back to our hometowns, to our law enforcement communities, 
in terms of what role DHS is going to play?
    Mr. Selim. Senator, thank you for those questions, and I 
appreciate you and your staff making time to really get engaged 
on these issues and understand the message that we are trying 
to communicate and taking that back to your constituents as 
well.
    Your first question in terms of multiplying the efforts, 
two immediate thoughts. The business model of the Office for 
Community Partnerships at DHS is to supply products and 
services to a range of stakeholders across the country. Our 
three major sets of stakeholders are: State and local law 
enforcement, first responders, homeland security professionals 
across the country. Our second major set of stakeholders is 
municipal officials--mayors, county council members, people in 
elected or appointed local positions, whether they be security 
or not security related. And the third real set of constituents 
we have is civic leaders, civil organizations, not-for-profit 
organizations and so on.
    So in terms of getting out the message for the products and 
services DHS is offering and further taking advantage of the 
grant opportunity that we announced today to multiply and 
expand efforts across the country at this, our ultimate goal 
here is to create a much broader prevention framework in cities 
and municipalities----
    Senator Heitkamp. My concern is that you can give people 
tools, but if they do not see how they fit into a broader 
strategy of anti-radicalization, it may be difficult for them 
to utilize those tools. But I think the more that we get out 
there with grants, the more we work with communities, the more 
we will establish a pattern of best practices, which I think is 
the kind of critical development that we need here, and it 
really is incumbent, I think, on a community policing model 
where you really look at the entire community. Obviously, 
tensions in communities can lead to stress and can lead to bad 
outcomes. And so how do we avoid polarization which could lead 
to isolation which could lead to radicalization? How do we 
avoid that? And what are you looking for--in 2 years, what do 
you hope you have learned from all of the grants and all of the 
resources that you have provided?
    Mr. Selim. Senator, fundamental to the work of countering 
or preventing violent extremism in the homeland is community 
inclusiveness and those types of interpersonal relationships 
that you are referring to. That is foundational in this 
business. The ability for individuals who sense someone's 
behavior may be changing, there might be something they are 
concerned about, having the ability to say something to someone 
if they do not trust law enforcement to do so, having the right 
mental health, social service, and education providers to do 
so.
    At the end of the next 2 years, for example, the impact 
that we are trying to develop is creating a more integrated 
approach in cities and municipalities across the country where 
not just a community policing model exists but a more 
integrated approach of mental health, social service, and 
education providers are part of this prevention framework.
    Senator Heitkamp. Thank you so much. I look forward to 
hearing more about the grant applications and understanding 
more what the overall strategy is.
    Senator Portman. Senator Baldwin.

              OPENING STATEMENT OF SENATOR BALDWIN

    Senator Baldwin. Thank you, Mr. Chairman.
    We often do not hear about the good news or the encouraging 
news, but earlier this year, Mr. Steinbach, the FBI prevented a 
terrorist attack in my home State of Wisconsin. It reached the 
newspapers that a 23-year-old man had a vicious plan to kill at 
least 30 people at a Masonic temple in downtown Milwaukee.
    In my conversations with the FBI, officials indicated that 
fusion centers and FBI databases, such as eGuardian, which 
allow law enforcement to share intelligence were particularly 
useful. I know that FBI Joint Terrorism Task Forces can be 
critical in sharing time-sensitive information, gathering 
evidence, and making arrests.
    So I want to hear from you about how we can expand and 
support these sort of law enforcement-coordinated efforts while 
also ensuring privacy protections and how we can better utilize 
coordination tools such as fusion centers and FBI databases to 
continue to prevent attacks like the one that was thwarted in 
my home State?
    Mr. Steinbach. Yes, ma'am, thank you. So I think it begins 
with all of those tools. The threat is changing. It is dynamic, 
and it is much faster. So it is not just--as I mentioned in my 
opening remarks, it is not just sharing information. It is how 
quickly--the speed of information sharing. So having fusion 
centers and Joint Terrorism Task Forces with multiple agency 
participation in them, active participation, as the information 
or the intelligence comes in, whether it is through eGuardian, 
through a tip, through foreign partners, when we get that 
information, we very quickly assess it using databases to 
identify the totality of what we know and then quickly act and 
use all of the tools that we are allowed to use, understanding 
that the individual's right to privacy is paramount to how we 
do things.
    So we quickly assess the information with our partners, 
State and local. As you know, State and local are force 
multipliers for us, and we quickly act within the limits of our 
authority to mitigate that. And the case that you refer to was 
an example of that that we try to replicate over and over 
again.
    Senator Baldwin. And then, quickly--I know our time is 
running out--thank you, Mr. Selim, for being here. And if you 
covered this before I arrived, I apologize for the repetition, 
but, obviously, as a part of this effort that you lead, it is 
critical that no group is targeted or discriminated against on 
the basis of religion or national origin. And it is also 
important that CVE grants are not used to perpetuate the 
alienation of any group or population.
    And so what I want to hear from you is, if you could speak 
to any specific training that your staff receives, civil 
liberty training that your office receives, and also oversight 
mechanisms that will be in place after the grants are awarded.
    Mr. Selim. Thank you, Senator, for that question. It is 
really important to underscore the civil rights, civil 
liberties, and privacy protections that are in place on all CVE 
initiatives across government domestically.
    The first point I would add is of my 10 years at DHS, 6 of 
those years were spent worked in the Office for Civil Rights 
and Civil Liberties, so I appreciate the spirit of your 
question.
    On the CVE grants question, we have built into the Notice 
of Funding which was released this morning a comprehensive 
scoring and evaluation that we have for any potential applicant 
who applies for those grants that has to demonstrate, the 
intent of what the money will go towards, partnerships that 
have been developed, and a whole range of options. If we see 
any applications submitted that are in any way, infringing on 
an individual's or group's civil rights, civil liberties, or 
privacy, we are not even going to score those applications.
    Within the Department, part of the evaluation of those 
applications, the Office for Civil Rights and Civil Liberties 
provides outstanding oversight to my office on all our 
programs, and they are partners with us on the oversight of 
this grant initiative as well. So that is built in and baked 
into everything we do.
    And the last point I would mention, Senator, is that the 
programs that we are administering, whether they are grants or 
initiatives we take in other places in the country, are 
completely voluntary. We are being responsive to community 
requests for CVE-related programming. And it may not be termed 
``CVE.'' It might be ``building or enhancing community 
resilience'' or ``preventing extremism'' or some other title. 
And so our job is to supply the product services or technical 
assistance irrespective of what a locality might call it, but 
be responsive to their needs, and we are not imposing a DHS 
model per se. We are responding and helping customize localized 
approaches.
    Senator Portman. Mr. Selim, thank you for that answer.
    We are going to now recess subject to the call of the 
Chair. I apologize. Again, I ask the indulgence of the panel if 
you would not mind hanging around for a little while longer. I 
am going to be playing tag team with Senator McCaskill as we 
run back and forth and vote. But we do have some additional 
questions for you that I was not able to ask earlier in order 
to allow some of my colleagues to ask questions.
    So we will now recess subject to the call of the Chair, and 
we will be right back.
    [Recess.]
    The hearing will come to order. Again, I appreciate the 
indulgence of our two--now three distinguished witnesses who 
have come back to the table. I do not know if I am going to be 
joined by any of my colleagues because we have another at least 
two votes coming up. I am going to run back and forth. I will 
let you all go after my questions, of course, and then we will 
take another recess and ask the second panel if they would be 
willing to stick around, because I know Senator McCaskill is 
coming back, and I assume some of my colleagues are as well. 
But I thought we got into a lot of good back-and-forth with the 
previous questions that were asked, and, again, going back to 
how we started, Mr. Steinbach talked about the fact that he 
agrees with the assessment from last year, which is that the 
lone-wolf terrorist radicalized online is the main threat 
facing the United States. And we talked a lot about the two 
programs that are represented here today: one is the new 
program at the Department of Homeland Security called the 
``Global Engagement Center''--I am sorry, the ``Office of 
Community Partnership,'' and then, of course, the State 
Department's Global Engagement Center. So what I would like to 
focus on a little bit is whether you feel you have the 
authorities you need to be able to do your job right.
    On the domestic side, Mr. Selim, you are not as aggressive 
as they are on the global side, in part because of some legal 
challenges that you face. They can do and say some things that 
you cannot. You also have not had the amount of time they have 
had to put together your digital effort. I think that is fair 
to say. By the same token, I think it is clear, including from 
some of the back-and-forth you had with some of my colleagues, 
that there is an enormous opportunity here domestically to be 
able to develop a message that is more compelling than the ones 
we currently have out there. We talked earlier about some of 
the messages coming from the jihadists, and, in fact, we had 
some photographs here earlier of sort of a romanticized version 
of jihad.
    And so I guess my first question to you would be: Are you 
happy with the progress that the Department has made, 
particularly on the digital counterterrorism communications 
front? And, specifically, how many online campaigns has DHS, 
particularly your office, devised or funded or launched, even 
through third parties, over the past year? What is the scale 
and composition of the audiences you have reached? How do you 
measure your results? Do you feel as though on the domestic 
side we are beginning to catch up?
    Mr. Selim. Thank you, Mr. Chairman, for your question. In 
terms of the first point you made regarding the authorities 
that we have, we have looked at this issue. Our current posture 
in the programs that we are implementing, we do not see any 
immediate impediments in terms of regulations or authorities 
for promoting and really taking to scale the programs that we 
have just started. The program----
    Senator Portman. Let me interrupt you there just for a 
second. I was going to get into this further with regard to the 
Global Engagement Center, but one of the things that, of 
course, this Committee is interested in is to ensure that you 
have the authority to be able to be an effective interagency 
leader, and that requires you to be able to direct and task 
people. We talked earlier about the FBI's role in this, which 
is a law enforcement role, but obviously, there is some 
interaction between your role as the communications person in 
the law enforcement side.
    Do you feel specifically that you have the tasking 
authority you need to be able to be an effective interagency 
leader?
    Mr. Selim. As of today, I can say that I do. I have been 
fully empowered by the Secretary and in my role as the Director 
of the CVE Task Force. Deputies across departments and 
agencies, including the FBI, the Department of Justice, the 
National Counterterrorism Center, and a range of other agencies 
came together to affirm this body come together and help 
coordinate and synchronize our domestic CVE efforts. So I feel 
like I do have those authorities, sir.
    Senator Portman. Good. Well, that is something that 
certainly was the intent of this Committee to support you in 
that, to be able to have that tasking authority, which, 
frankly, your predecessor organization I am not sure felt like 
they had in terms of that interagency cooperation. So if you do 
not mind, go ahead and I will let you answer the question about 
the digital communications efforts, the campaigns.
    Mr. Selim. Yes. In terms of the campaigns that we have 
initiated, the methodology that we are currently implementing 
is not for the Department or Department personnel to issue or 
to create campaigns and then implement them via social media or 
some other means. We are really utilizing the methodology 
behind prizes, challenges, competitions, and engaging young 
people and Millennials on these issues. So the effort that I 
mentioned in my beginning statement and in my written 
statement, the Peer-2-Peer Challenge Extremism competition, 
what we have done is essentially we have created a 15-week 
academic curriculum for college and university students both in 
the United States and across the globe to, in a 15-week 
academic semester, identify a target audience for challenging 
extremism, create a campaign, implement the campaign, and 
measure the effectiveness of that campaign on a 15-week 
academic semester.
    Mr. Chairman, you asked for some statistics. Roughly, to 
date we have run this program for about three academic 
semesters with approximately 150 colleges and universities 
across the globe. This coming fall, we are interested in 
scaling that effort significantly with up to 200 colleges and 
universities across the globe. And our metrics for assessment 
are on an individual university-based program and then on an 
aggregate, the level of impressions and influence that each of 
those campaigns are having.
    To date, of the programs that we have implemented, we have 
anywhere between 30,000 and a million social media impressions 
and campaigns that have made micro impressions on various 
social media platforms that have attempted to counter or negate 
the message of ISIL in terms of recruitment and radicalization. 
I think this is one of the initiatives that we can take to 
scale significantly in the semesters to come, and the program 
has the flexibility to allow us to scale or tweak or adjust our 
measurements, our assessments, and the number of universities 
we are implementing on a semester-by-semester basis.
    Senator Portman. On the composition of the audience, what 
kind of metrics do you have and what kind of information do you 
have to share with us today? In other words, who are you 
reaching?
    Mr. Selim. So there are several different criteria of 
audiences, audience criteria that we are assessing. At-risk 
individuals on the fence are those that can be amplifiers of 
positive or alternative narratives. And each of the campaigns 
that is initiated is required to assess how to best target or 
communicate with that audience and then implement the campaign 
to effectively do so.
    Senator Portman. Do you have metrics?
    Mr. Selim. We do. Again, on a university-by-university 
assessment we do, and then as an aggregate we do overall.
    Senator Portman. But not in terms of the audiences that are 
being reached, the composition of the audiences who you are 
reaching?
    Mr. Selim. We do, and I will share with you one set of data 
and analytics as an anecdote. Just a few weeks ago, at the 
State Department we launched the completion of our third 
successful semester of this competition. One of the finalist 
universities from the United States was the Rochester Institute 
of Technology from New York. They had one specific statistic 
that was worth mentioning. Prior to the implementation of their 
campaign, roughly 87 percent of respondents of a 300-person 
survey they conducted associated Islam with terrorism and had a 
negative interpretation of the religion or of Muslims writ 
large.
    After the implementation of their campaign, 97 percent or 
98 percent of the respondents of that same survey understood 
the distinction between Islam, Muslims, and terrorism and had a 
positive or favorable view in terms of both the Middle East, 
American Muslims, and American Arabs and felt the need to be 
compelled to do proactive work with their communities in terms 
of reaching out to Arab, Muslim, and South Asian communities.
    Senator Portman. Well, again, I think we are catching up. 
The jihadists we talked about earlier have been at this really 
for 3 years, I would say it is fair to say. It has been an 
evolution but in a very sophisticated way online. You talked 
about three semesters. That is good that we have gotten 
started, but we have a lot to catch up on. And I think having 
this data on the composition is important. It is important that 
we are distinguishing between the Muslim community and the 
terrorist community, as you just said. It is also important, 
though, we are meeting some of these vulnerable people online 
where they live and communicating that message. And I guess 
that would be what I and I think the Committee would be very 
interested in, is to know how can we come up with a better 
metric to judge that. Every marketing department in practically 
every company in the United States, certainly every online 
company, is focused on this. How do you reach your audience? 
And that is certainly something that--Peer-2-Peer is a good 
start in my view. I support it. But I think it needs to be even 
broader than that and we need to have better data coming back.
    I would say, Mr. Steinbach, as a general matter, it seems 
to me there is both a public and an encrypted part of this 
communication strategy on the public part, as I understand, and 
you correct me. There is a wide net being cast by the jihadists 
who are online to create this sense of interest or excitement 
in the jihad or the mission, and that is very public. And we 
see it, you see it. Mr. Selim, your people see it. That is what 
you are countering, I hope, with these messages, is telling the 
truth, dealing with the disinformation.
    Then there becomes, once those people make contact, I 
assume that is when what you talked about earlier occurs, which 
is the encrypted part of the communication, which is more 
challenging. Is that an accurate assessment of what is going 
on?
    Mr. Steinbach. I think that is a very simple but accurate 
model. We see the volume piece, the initial piece, public 
information pushed out through a variety of means of social 
media, the hundreds and hundreds of companies casting a wide 
net, trying to identify individuals who are like-minded, who 
are willing to act, who are willing to travel. And then once 
they identify somebody who raises their hand and says yes, then 
the conversation switches to mobile messaging apps that are 
encrypted so that there is complete secrecy.
    Senator Portman. And this is the challenge you talked about 
earlier and Director Comey has talked about in this Committee 
publicly, is how do we deal with that second stage. Is there 
anything you can tell us today about any attempts that you are 
making to be able to break through on that second tier? And 
what is the way in which we can intervene there as well?
    Mr. Steinbach. So I think it is important to understand 
that the FBI looks at this as an important issue for the 
American public to vigorously discuss, and that really is 
privacy versus national security, encryption versus national 
security. I think all of us as citizens, myself included, want 
strong encryption. But we need to continue to have 
conversations about where the limits of that are, and we would 
argue that strong encryption, although important, must be 
balanced with national security interests so that when a judge 
or a magistrate provides authority, we have the ability, law 
enforcement has the ability to see those unencrypted 
communications or have access to that. We feel that is an 
appropriate balance.
    Ultimately, it is a decision for the American public 
through Congress, but that for us is fundamental. We see today 
more and more of our bad actors using encrypted communications 
in a variety of ways. Without the ability to see those 
encrypted communications, we are dark, we are blind as to their 
operational intent. So we try to identify workarounds, but 
those are few and far between.
    Senator Portman. Well, I appreciate that, and that is not 
really the topic so much of this conversation. And, in fact, a 
lot of that is better, I guess, undertaken in a classified 
setting. But the reality is that the funnel starts in a more 
broad and public way, and to keep people from going into that 
funnel, I would say the funnel of darkness, we have an 
opportunity on the public side. And I think that is where Mr. 
Selim and Ms. LaGraffe have an opportunity of working with you 
to try to avoid so many people going into that place where it 
is much more difficult for you to be able to understand what 
their communications are.
    Are there any models, to you, Mr. Steinbach, or you, Mr. 
Selim, that you look at globally that you think are working 
better in terms of dealing with this challenge of online 
recruitment and online propaganda and disinformation?
    Mr. Selim. I would say as we think about countering violent 
extremism domestically, it needs to be a blend of both online 
and offline programs. While the radicalization and recruitment 
can start online, what we have seen and what the data has shown 
us are primarily from closed and processed FBI investigations 
is that individuals around someone who is being radicalized--
friends, neighbors, peers, associates--see some type of 
behavior that may be out of place, but do not report it for one 
reason or another.
    So to the extent that radicalization and recruitment starts 
online, it can end offline, like we have seen tragically happen 
in several American cities. And so we are really working 
diligently toward an integrated approach where there are 
countermessages online and there is a prevention framework 
offline as well. And it is really that combination that we are 
working toward.
    Senator Portman. And I assume a prevention framework online 
as well.
    Mr. Selim. Correct.
    Senator Portman. In other words, part of the audience we 
talked about earlier is the vulnerable potential jihadists, but 
it is also to the friend and the co-worker and the neighbor.
    Mr. Selim. Correct.
    Senator Portman. And the family member, and San Bernardino 
being perhaps the most recent tragic example of that, where 
there are people who after the fact said, ``Something seemed 
strange, but I felt that I was constrained, I could not report 
it,'' for some reason. And that is part of your effort, I 
assume.
    Mr. Selim. It is to raise awareness. The three primary----
    Senator Portman. And you empower people to step forward.
    Mr. Selim. Exactly. The three primary objectives of our 
office are: No. 1, really raise awareness as to the nature and 
scope of threat of radicalization and recruitment, online and 
offline, and we have discovered, dozens of cases where 
community-based groups are not aware to the extent that 
radicalization is happening online. We need them to come in and 
provide tools and resources to those communities and help 
develop and sustain long-term partnerships for them, whether 
they be with Federal, State, and local law enforcement or other 
trusted community institutions--mental health, social service, 
and education providers.
    Senator Portman. When I was looking for a model, I was 
hoping you would talk about the British Research Information 
and Communications Unit (RICU), which has gotten some good 
plaudits internationally for being very aggressive in pumping 
out messaging, being very aggressive online, using third 
parties, as you are now doing with Peer-2-Peer. They use 
traditional media as well as social media, as you know.
    I think we have some legal constraints the British do not 
have in this regard, so we cannot do exactly what they are 
doing. But what do you know about what they are up to? And why 
have they been successful and what can we learn from them? For 
either one of you.
    Mr. Steinbach. I am not familiar with that, sir.
    Senator Portman. OK. George?
    Mr. Selim. I am pretty familiar with the British model on 
this. I was recently there would Deputy Secretary Mayorkas, 
General Taylor, and a senior leadership team from DHS. They 
provided a deep dive in terms of their program, their analytics 
and so on. Senator, as you pointed out, their legal structure 
affords them a number of different flexibilities that we do not 
have here in the homeland, and from my perspective as the 
Director of the CVE Task Force, it is important to have a 
comparative understanding of what is happening not just in the 
U.K. but in Germany, France, other Western European and, 
frankly, other coalition countries outside of Europe. The RICU 
model is an interesting model. They have some interesting data 
and analytics that has proven effective so far. And it is 
important that both the U.S., the U.K., and other partner 
countries keep in close contact with not just best practices 
but really promising practices that are showing effectiveness.
    Senator Portman. This brings us really to the global 
effort, and, again, if you do not mind providing more 
information to us as to what you think we can learn from them 
and with regard to the legal constraints, just to be sure we 
are all on the same page, we understand what constraints you 
feel you might have. I know you also likely are going to tell 
us today that you have some resource constraints. You would not 
be doing your job if you did not. And, that is another issue 
that I think maybe the British have put a greater emphasis on 
this in terms of their resource allocation, as I understand it, 
within their budget.
    But on the global side--I do not want to leave Ms. LaGraffe 
out of this conversation--do you think that the Global 
Engagement Center, which is also aimed at changing attitudes 
over the long term, is adequately using the data analytics 
tools we talked about here to focus on those who are most 
vulnerable to radicalization? And to the extent you can, can 
you give us one or two examples of where the Center has done 
that kind of micro targeting?
    Ms. LaGraffe. Thank you, Senator. To answer your first 
question, the data analytics shop within the Global Engagement 
Center, as you know, is in its sort of early stages, and we are 
working very closely with the State Department Office of the 
Legal Adviser to make sure the analytics tools we identify to 
be potentially most appropriate for our organization are in 
keeping with the regulations specifically related to the 
Privacy Act.
    Thus far, what that has looked like in practice is that we 
have identified tools that give us access to aggregate data, so 
we are able to see in near-realtime trends on social media 
platforms to really assess what messages and what themes are 
resonating most with potential target audiences.
    Senator Portman. Yes, I think it would be good, to the 
extent you are able, to explain what you are talking about to 
the Committee today. You are talking about the Privacy Act, I 
assume.
    Ms. LaGraffe. Yes.
    Senator Portman. Which you mentioned the Office of Legal 
Adviser at the State Department giving you advice on this. My 
understanding is that the Privacy Act prevents the government 
from collecting certain information about Americans or lawful 
permanent residents but not about foreigners. Is that accurate?
    Ms. LaGraffe. I am not an attorney. I think the way you 
characterized it is accurate. My understanding of the challenge 
we face at the Global Engagement Center is, as you have said, 
we are not a law enforcement agency, nor are we an intelligence 
agency and, therefore, have restrictions related to the Privacy 
Act. These restrictions mostly focus around what is called 
``user-level data,'' so we have worked, as I mentioned, closely 
with the legal adviser's office to determine what tools we need 
to get aggregate-level data, but the user-level analysis is 
something that we as the Global Engagement Center do not have 
authority to access.
    Senator Portman. I think we should have further discussion 
of this because I think it is in all of our interest that you 
do micro target. Again, as I mentioned, every company in the 
United States practically, as well as those online companies, 
are doing this--and wouldn't it be ironic if our own State 
Department is not able to do that to fight terrorism?--to be 
able to understand who the people are who are most vulnerable 
to these potential disinformation campaigns and then provide 
them the countermessaging.
    So I am concerned about the way in which the State 
Department has interpreted the act. I think what they would 
say--and, I am a recovering lawyer so I have to be careful 
here, and did work at one point during law school at the legal 
adviser's office. But I think what they are saying is that it 
could inadvertently collect information about Americans. So it 
is not that you are unable to collect information about 
foreigners or, again, this vulnerable overseas group we are 
talking about. It is that apparently they think that there 
could be information collected about Americans inadvertently. 
Is that your understanding?
    Ms. LaGraffe. It is.
    Senator Portman. OK. What are you losing by not being able 
to do that kind of micro targeting?
    Ms. LaGraffe. I do not think we as an organization have yet 
fully fleshed out what missed opportunities there may be in 
either lack of analysis in this realm or any other. Frankly, it 
is so early days for the Global Engagement Center--we have been 
up and running for just a few months--that we are focused more 
on what opportunities we can identify to actually start having 
a result in the aggregate.
    Senator Portman. Well, again, I think we are in a crisis 
mode in the sense that, as Mr. Steinbach has talked about 
today, this online messaging is a huge part of the 
radicalization effort, and certainly this relates both to 
domestic and overseas. So I would want to be sure that, as hard 
as your task is, it is not made harder by constraints that keep 
us from targeting the very population that is most vulnerable 
or more predisposed to accepting the disinformation and the 
message from the jihadists.
    So I would just say, as one member of the Committee, I 
would like to follow-up on that further with you all and to get 
some information about how the State Department is interpreting 
the privacy rule as it relates to foreigners and what that 
keeps us from doing in terms of being able to target these 
groups.
    Senator McCaskill has now returned, so I am going to turn 
to her for her questions. And, again, we are going to sort of 
tag team here. I may not have the opportunity to speak to the 
three of you again, so thank you very much for your service to 
our country And I know each of you has a distinguished 
background of service in various law enforcement and State 
Department and now communications areas, and we need you very 
badly right now to be able to have an effective countermessage 
out there. I think it is as important as anything else that is 
being done, and everything else, as I said at the outset of the 
hearing, can be done successfully, the military side, 
protecting the homeland in other ways, and still, if we do not 
deal with this threat of the disinformation online and the 
radicalization that is going on, we will not be successful. So 
we thank you for your hard work and for your willingness to 
continue to work harder to do even better to redouble our 
efforts to be more successful. Senator McCaskill.
    [Pause.]
    Senator McCaskill. Sorry. We are trying to figure out how 
we can vote and do this hearing at the same time.
    Senator Portman. Call the second panel whenever you want.
    Senator McCaskill [Presiding.] OK. A couple of things.
    Mr. Steinbach, I was the elected DA in Kansas City in the 
1990s, and we had an awful lot of work that the Justice 
Department did through the Bureau of Justice Assistance (BJA) 
and other parts of Justice about gangs and how did we stop 
somebody from being radicalized into a group that was intent on 
violence. And there were millions and millions and millions of 
dollars spent on how we gain cooperation of the community, how 
we identify young men--and sometimes young women but primarily 
young men--from entering gangs.
    I am reading a lot of things in preparation for this 
hearing, and so much of it began to take on a ring of 
familiarity. And I am wondering to what extent have we taken 
out the volumes of research and work that were done in terms of 
accessing communities, getting the help of communities, 
identifying someone who is being radicalized to a life of 
violence. The only clear difference I see here is that 
obviously this is being clothed in a false costume of religion, 
and it is convincing people that they should die for this, 
although the young gang members at the time would say, they 
were proud of going--I do not know if you remember. You 
probably do remember this. You were probably working as an 
agent at that point. I am guessing. Were you or are you too 
young to have worked as an agent in the 1990s?
    Mr. Steinbach. No. I was an agent.
    Senator McCaskill. OK. So you know that one of the saddest 
things that law enforcement encountered were some of these 
young men that were 12 and 13 years old going with their first 
pile of cash to buy caskets and to plan their funerals. So they 
were anticipating their death.
    Has there been any work--I mean, Homeland Security was not 
around then, but has there been any work at Justice to try to 
pull off some of the strategies that proved to be effective in 
fighting the gang wars of the 1990s as it applies to radical 
extremism that we are working with now?
    Mr. Steinbach. Yes, ma'am. I think you are right on. I 
think at the core, the reasons for disaffected youth joining 
something they can belong to, whether it is a gang or radical 
Islam, there is something to that. So in partnership with all 
these agencies at the table, we look to the communities to 
answer our questions. So just as we used the communities and 
developed trust within the neighborhoods, we do the same thing 
with the communities of interest now. We work with the 
communities, focusing our efforts, empowering them to 
identify--because once an individual comes to the FBI's 
attention and we have predicated an investigation, it is too 
far down the road. It is gone. It is too late. We need to 
identify those individuals as they start down that path of 
radicalization, and the key to that, quite frankly, is in the 
communities. The only difference between the 1990s and today is 
the online space and working within the online arena, which is 
where I think George's efforts are focusing on.
    Senator McCaskill. And have we looked at--I mean, I know 
that we are talking about calling in psychologists and 
psychiatrists and paying money to contractors. I mean, what I 
am really wanting to make sure is we are not reinventing a 
wheel that we have already spent a lot of taxpayer dollars 
researching since the problems are so similar. Is anybody 
pulling out any of the work that was done by professionals? Are 
any of you familiar with any of that work that was done by 
professionals back when we were dealing with extremism in the 
form of gangs?
    Mr. Selim. Senator, if I may, we are indeed very familiar 
with a great body of that work, which is the wealth of 
information that the Justice Department as our partners and the 
Executive Office of U.S. Attorneys, many of whom have been 
prosecutors at the State, local, and now at the Federal level 
for the past several decades, bring to bear in this regard. I 
think when we are thinking about prevention models, whether it 
be gang prevention, we have looked at the model of the National 
Center for Missing and Exploited Children (NCMEC), how does 
that public-private partnership with law enforcement and NGO 
work, how do you prevent whether it is human trafficking and 
smuggling, prevent recruitment and radicalization to 
transnational gangs and other models like that, we have 
definitely pulled heavily from that body, and that has helped 
inform the models that we apply today.
    Senator McCaskill. Mr. Steinbach, I know that you all are 
engaging in the Muslim community in the United States. Can you 
give us anything in this setting as to what percentage of the 
leads that you all work actually are generated by Muslims who 
are concerned about someone at their mosque or someone in their 
community that they believe might be subjected to some kind of 
radicalization of their faith?
    Mr. Steinbach. Yes, ma'am, and the answer is no, I do not 
have those numbers with me. And part of the problem is when 
incoming tips come in, we are not cataloguing them by the type 
of person that provides it. But I will say that every field 
office commander through all 56 field offices of the FBI works 
closely in partnership with the communities of interest, with 
the mosques, the churches, the temples, and develops strong 
relationships for a number of reasons. They recognize, those 
field office commanders, that the leaders of those communities 
do not want that bad apple, those bad apples affecting their 
children or impacting in a negative way their areas of worship, 
their places of worship, their communities. And so there is 
quite a bit of communication back and forth at the foundational 
level in the communities. I could not give you a number on the 
number of tips. I will say that we get a lot of information and 
assistance from those communities, however.
    Senator McCaskill. Is it your sense from talking to your 
SACs that are out there in the field and that are working with 
these communities, do you sense a frustration with them that 
these communities are failing to cooperate? What is your 
overall impression about the willingness of the Muslim 
community in the United States to try to be helpful as opposed 
to the way they are sometimes categorized in the media or by 
other politicians?
    Mr. Steinbach. I would say overwhelmingly the religious 
communities across the United States are very helpful to us in 
identifying sources of radicalization, whether that is Islam, 
Christianity, Judaism. We could not do our job without them. So 
I would not characterize it as an adversarial relationship or a 
negative relationship at all. It is a very positive 
relationship.
    Senator McCaskill. I am usually here preaching about 
interagency cooperation, and now I am going to ask a question 
that I did not really anticipate that I would ever be asking. 
But we now have the National Counterterrorism Center, the DHS-
led Interagency Task Force, and the Global Engagement Center, 
and there are probably a few others. Now we are in danger of 
the interagency groups not coordinating with other interagency 
groups because we have a plethora of interagency groups.
    Can any of you speak to any sense you have of how well we 
are cooperating with these various interagency groups that are 
all ostensibly driving towards the same purpose?
    Mr. Selim. I will start, and I will ask my co-panelists to 
join in. From where I sit at the Director of this Task Force, 
what we have done by creating the Global Engagement Center, the 
CVE Task Force, and other models across the Federal Government, 
including the National Counterterrorism Center, we have really 
honed in and specialized in what the key tasks and objectives 
are. So the National Counterterrorism Center is a part of the 
intelligence community, and they cannot play the same role that 
a DHS or a Justice Department official has due to their 
authorities and regulations and so on.
    In terms of cooperation with my colleagues at the State 
Department on the Global Engagement Center, the Department of 
Homeland Security has a full-time detailee at the Global 
Engagement Center, again, a very discrete mission set different 
from ours, and we meet regularly. If not several times a month, 
every few weeks we get together, our leadership gets together 
to figure out how we can better coordinate or integrate our 
efforts abroad and domestically.
    And so I think what you have identified, Senator, is a 
number of interagency bodies that have been really honed in on 
a specific set of tasks rather than aggregated overall to a 
department or agency's mission.
    Senator McCaskill. It would be really helpful, to the 
extent that you can in a nonclassified setting, not for 
testimony today but if somebody would put on paper how you 
would diagram this in terms of responsibilities. The thing I am 
most concerned about is being sure who is accountable for a 
situation. That is the other thing that happens sometimes when 
you have more than one group in charge. I have seen it. I will 
not give specific examples, but I could, bunches of them. If 
you just look at contracting in Iraq, it was a big old quagmire 
of a mess between United States Agency for International 
Development (USAID) and the Comprehensive Everglades 
Restoration Plan (CERP) funds and, there were just a lot of 
things that there was not really--it was not clear who was 
watching all the money.
    And so I would love a diagram as to what are the different 
responsibilities between these different interagency task 
forces and who is reporting to whom and who is ultimately 
accountable--besides the President, who obviously is ultimately 
accountable.
    I am sure I will have other questions for the record.
    I really appreciate all of your work, your dedication. I 
like to remind people that are so cynical about their 
government, I have not met any of you types that came into this 
line of work for money. And, frankly, for the vast majority of 
you and your colleagues, it is not for glory either. So it is a 
sense of purpose and a sense of serving the public and a sense 
of accomplishment. So please convey to all of your colleagues 
how appreciative we are. Even though you do not get probably 
enough love day in and day out other than from your families, 
what you do is really important, and I respect it very much. 
And we will call the next panel.
    [Pause.]
    Thank you all for being here.
    Peter Bergen is vice president of New America where he 
directs the international security program which conducts 
research and analysis on extremist groups, homeland security, 
and other things. He is a contributing editor at Foreign Policy 
Magazine, a professor at Arizona State University, and writes a 
weekly column for CNN. Mr. Bergen is also a member of the Aspen 
Security Group and a documentary producer and author.
    Alberto Fernandez is the vice president of the Middle East 
Media Research Institute and a member of the board at the 
Center for Cyber and Homeland Security at George Washington 
University. From 2012 to 2015, he served as the State 
Department's Coordinator for Strategic Counterterrorism 
Communications and prior to that was a Foreign Service Officer 
for over 30 years.
    Thank you both for being here today. It is the custom of 
this Subcommittee to swear in all witnesses, so at this time I 
would ask both of you to please stand and raise your right 
hand. Do you swear that the testimony you are about to give 
before the Subcommittee will be the truth, the whole truth, and 
nothing but the truth, so help you, God?
    Mr. Bergen. I do.
    Mr. Fernandez. I do.
    Senator McCaskill. Let the record reflect the witnesses 
have answered in the affirmative.
    All of your written testimony will be printed in the 
record, and we would ask that you try to limit your oral 
testimony to 5 minutes.
    Mr. Bergen, we will hear from you first.

   TESTIMONY OF PETER BERGEN,\1\ VICE PRESIDENT, NEW AMERICA 
                           FOUNDATION

    Mr. Bergen. Senator McCaskill and other Members of the 
Committee, thanks for this opportunity.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Bergen appears in the Appendix on 
page 64.
---------------------------------------------------------------------------
    You asked a question of Michael Steinbach, and I think I 
have an answer. He did not have an answer for the reasons he 
laid out, but we looked at more than 330 jihadi terrorist cases 
since 9/11. We found based on the public record that a third of 
them, a third of those cases were generated either by community 
tips or family member tips. So there is a high degree of 
cooperation amongst the community.
    Turning to just my overall comments, on Friday we saw 
something that I think is indicative of something we need to be 
concerned about, which is terrorists are now the media. Maggie 
Thatcher, when she was Prime Minister, famously said that 
terrorists were--the ``oxygen of publicity'' is terrorism. She 
said that in 1985. Well, what if terrorists themselves control 
the media, they completely bypass the traditional media? We saw 
on Friday, for instance, that the attackers in Bangladesh 
murdered the people in the cafe. They immediately posted it all 
to Amaq, which is effectively ISIS' news agency, which then in 
turn published it.
    So now we have an interesting situation where the 
terrorists are the perpetrators, the producers of the media 
around this, and the propagators. And this is something new.
    We saw in Paris the ISIS-inspired militant last month who 
killed the French police official and his partner. He 
immediately posted pictures and videotape a whole disquisition 
about his allegiance to ISIS on Facebook.
    In the Orlando case and in the San Bernardino case, as you 
know, the perpetrators immediately pledged their allegiance to 
Facebook in the middle of the attack.
    So one big idea is terrorists are now the media, and that 
is something that is new. They have always tried to influence 
the media.
    The second, I think, big idea is that ISIS is effectively 
crowdsourcing jihad, and we have had a lot of testimony today 
about that fact. But there are obviously results. In the United 
States, in the last 2 years we have had six ISIS-inspired 
attacks, two of them lethal in San Bernardino and Orlando, four 
of them luckily not lethal in places like Garland, Texas, in 
New York City, in Philadelphia, and in California. But even in 
the nonlethal cases, people were severely wounded in a couple 
of these cases.
    So who is ISIS appealing to in the West? At New America, 
where I work, we looked at--and also in the United States, we 
looked at 715 cases, again, based on public records and trials, 
and we found that one in eight were women, which is 
unprecedented. In previous jihads we had never seen that. The 
average age is 25. The average age for the females is 22. Many 
of them had family ties to jihad. A third of them had family 
ties to jihad, a brother or father who went, they got married 
over there. And we found that the profile of the Americans who 
joined the jihad or tried--either succeeded or attempted to 
join ISIS was very similar. So one in seven were women, the 
average age was just under 25, a fifth of them had family ties 
to jihadism; and, crucially, more than three-quarters were very 
active online, meaning not that they were just sending emails 
but they were posting jihadi material on Facebook or Twitter. 
So I think none of that is necessarily surprising, but I think 
that has implications for how you try and contest this.
    What are ISIS' messages? Again, if we understand what the 
message is, we can contest them. One is they are victorious, 
and, at one point they controlled territory the size of the 
United Kingdom and a population the size of Switzerland. That 
is now going down. They created a utopian society, it is the 
caliphate. There is a cool factor, there is a romanticist 
factor. The message shifted in early 2015 from joining the 
caliphate to attacking the West if you look at their kind of 
messaging.
    What to do? In the 1 minute I have left, I have a few 
ideas.
    One is I think with CVE there has been kind of a rather 
crucial conceptual confusion between countering radicalization 
and countering recruitment. And these things are related. But 
at the end of the day, what we are trying to do is stop people 
joining the gangs in the 1990s or joining ISIS, and trying to 
stop radicalization. It is not illegal in this country to have 
bad ideas, and it is a very hard task. Tens of millions of 
people probably have militant ideas. Very few of them join 
ISIS. Maybe 60,000 over the last 2 years have actually--30,000 
from around the world have joined ISIS.
    So employing defectors is useful. Employing clerics like 
Imam Magid, who works not far from here, who has personally 
intervened with a number of cases in Northern Virginia. Twitter 
obviously enforcing its terms of use. The military campaign has 
had some success.
    Finally, just to round it up, what we should not do is ban 
immigration from Muslim countries, as is being proposed. That 
would have absolutely no effect on this issue. Every lethal 
terrorist attack in the United States since 9/11 has been 
carried out by an American citizen or American legal permanent 
resident. And so I will leave it at that.
    Senator McCaskill. I will certainly give you time for any 
other ideas in a minute as soon as Mr. Fernandez finishes his 
testimony. Mr. Fernandez.

 TESTIMONY OF ALBERTO M. FERNANDEZ,\1\ VICE PRESIDENT, MIDDLE 
                 EAST MEDIA RESEARCH INSTITUTE

    Mr. Fernandez. Thank you, Senator. I am happy to be here.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Fernandez appears in the Appendix 
on page 82.
---------------------------------------------------------------------------
    If we look at the space that the Islamic State and its 
rivals and colleagues occupy, we do see over the past couple of 
years some small measures of incipient progress. Certainly, the 
military campaign has begun a little bit to dent the victory 
narrative that the Islamic State has propagated.
    Social media companies, government, and the private sector, 
civil society groups have begun to at the very least dismantle 
the diffuse online networks that the Islamic State had for many 
years.
    In 2014, none of this stuff was being taken down. In 2016, 
the stuff is being taken down more rapidly. When people return, 
they return with less followers. So the space of the fan boys, 
the space of the online networks is being shrunken and being 
contested, has been contested, there is more material, there is 
more messages of defectors. There is a really good NGO, the 
International Center for the Study of Violent Extremism which 
is producing defector videos, which I highly recommend. So 
there is more stuff happening.
    However, the ISIS brand has to a large extent been 
internalized and metastasized to a large extent of the 
population. Now, of course, we are talking about minorities. We 
are not talking about 1.5 billion Muslims. We are talking about 
a small percentage of the population where the ISIS message has 
been internalized. It does not even need new material. It is 
old material that functions. It is old things that work. It is 
not the latest thing.
    By the way, in the time that this session has taken place, 
the Islamic State Al-Furqan released a 15-minute high-quality 
video talking about itself, talking about how great it is, 
which they announced on social media ahead of time this morning 
that they were going to do. I think it underscores Peter 
Bergen's point, that they are able to get--despite the pressure 
that we put on them, despite the fact that we are taking stuff 
down quickly, they are able to surge and get their message out 
at will when and where they want.
    Now, what has not been touched? I think there are several 
points that we need to think about when we think about what we 
have done and what has not been done. We still have not gotten 
the full benefit we have out of the slow but real military 
progress we are making on the ground.
    We should be talking in the last few days about ISIS' 
defeat at Fallujah and ISIS' near defeat at Mambij. And instead 
what are we talking about? Orlando, Istanbul, Medina, 
Bangladesh, et cetera, et cetera, et cetera. They have 
succeeded in changing the narrative. Instead of talking about 
how they are physically under great pressure in the field, we 
are seeing how the digital caliphate and the work that they do 
overseas is kind of serving as a substitute for military 
victory. So that is an area where they are still undented.
    The other area where they are still undented and something 
that almost no one either in the United States or overseas 
touches is the ideology, the building blocks of the ISIS 
message. The Salafi jihadist world view which empowers it and 
generates it is largely untouched. I can understand the 
government not wanting to do this. This is something that the 
U.S. Government is probably not very good about talking about, 
the intersection of politics and religion. But this is not 
something that is happening anywhere.
    As a thought process, when I was writing my testimony, I 
went on YouTube, and I put in some of the key terms that Salafi 
jihadists like ISIS use to radicalize people. I put them in 
English on YouTube. I thought, ``What if I was a 17-year-old 
boy, I am confused, I do not know what is what,'' and I put in 
these terms. And every single time the immediate return you got 
on YouTube was that of extremists, not of humanistic, tolerant, 
good people that we have in the Muslim community in the United 
States or overseas.
    One of the key terms, ``Al-Wala wal-Bara,'' which is about 
loyalty to radical Islam and hating the West and hating the 
country you are in, the No. 1 person that returned to it was 
Anwar al-Awlaki. So Anwar al-Awlaki 5 years after his death is 
still helping to radicalize people.
    So the ideological challenge of the Islamic State has not 
been challenged yet, and the sectarian dimension, even our 
victories in the region, are tainted by the sectarian 
dimension. So while we are making real progress on the ground 
against the Islamic State and even in cyberspace, some of the 
key building blocks for the Islamic State of today and of 
tomorrow are actually untouched or even enhanced by events on 
the ground.
    Thank you.
    Senator McCaskill. Thank you, and I have 2 minutes left to 
go, and Senator Portman has not returned. So I am going to ask 
you to sit tight. I am going to run to vote. He will be back I 
am sure before I will, but we will be back in--and I apologize 
for this, but it cannot be helped.
    Senator Portman [Presiding.] Thank you, and I assume we did 
not recess. OK. Thank you all very much for your patience. I 
apologize. I have gotten my exercise for the day literally 
running back and forth. We think we are done voting. We may 
have one more, but we will not ask you to stay if we leave 
again. I promise you.
    First of all, I apologize not to be here to hear your 
testimony, but I got a chance to review your testimony, and as 
I said at the outset, I really appreciate both of you being 
here and your distinguished backgrounds in this area trying to 
figure out, what the best things are to do. The government 
panel we heard from a little while ago told us that--and the 
FBI Director had said this late last year--the lone-wolf 
radicalization online he believes is the biggest threat to our 
national security here at home. And we now know the nature of 
that threat, but we need to get a deeper understanding of some 
of the trends that we are seeing. That is where you guys can be 
really helpful.
    In these attacks here, in all but one, I think there was no 
what you would consider, I suppose, direct contact between the 
terrorists and an ISIS cell overseas. Is that accurate, Mr. 
Bergen?
    Mr. Bergen. Yes. The only case is the Garland, Texas, case, 
where there was an actual attack in motion where they had 
communicated with ISIS.
    Senator Portman. Why do you think there has not been an 
overseas element in most of these U.S. attacks? Either one of 
you.
    Mr. Bergen. Let me try to answer that. On 9/11 there were 
16 people on the no-fly list. Now there are 47,000. There are 
like a million and a half people on the Terrorist Identities 
Datamart Environment (TIDE) list. On 9/11, the FBI and the CIA 
barely talked to each other. On 9/11, there was no NCTC, TSA, 
DHS. We have tripled our intelligence budget, and we are a much 
harder target. In fact, the last time a foreign terrorist 
organization tried to attack us unsuccessfully was May 1, 2010, 
with the Faisal Shahzad Pakistani Taliban attack. So the point 
is the reason we are talking about lone wolves is because we 
have erected these very large defenses against foreign 
terrorist organizations directing somebody, training somebody, 
sending them to us.
    Senator Portman. You note in your testimony that about 20 
percent of American ISIS members had a familial connection to 
jihad. That was your quote.
    Mr. Bergen. Yes.
    Senator Portman. Can you elaborate on that point? I ask 
because I think it implies that even here in the U.S. there 
might be a strong in-person element to radicalization, which is 
an interesting wrinkle to the story, in addition to what 
happens online.
    Mr. Bergen. Well, an example of that is the Khan family 
from Chicago, three teenagers, 19, 17, and 16, they have kind 
of radicalized together, two boys and one girl. They were all 
planning to join ISIS. They were arrested at O'Hare airport. 
That is one kind of example.
    Another kind of example is people go to join ISIS, of which 
there have not been that many Americans who have succeeded, but 
sometimes they marry somebody in ISIS or associated with ISIS 
when they get there.
    Senator Portman. And the content of the ISIS propaganda and 
how it is uniquely suited to the Internet is something you both 
have addressed. Ambassador Fernandez, you have noticed that 
this brand can be all things to all extremists. Mr. Bergen, you 
have also commented on this, and you have noted that the thrust 
of the ISIS message is that it offers a sense of purpose and 
community--we talked about this earlier--to the vulnerable, the 
disillusioned, the alienated.
    To both of you guys, what kind of countermessaging 
challenges and opportunities does that present for us?
    Mr. Fernandez. Well, a couple of things. No. 1, of course, 
is the most effective countermessaging are people that know the 
Islamic State best, and those are defectors, those are families 
of victims. The Islamic State is essentially a Sunni Arab 
Muslim organization. Yes, it has thousands of non-Arabs in it, 
but in terms of its world view, it is a Sunni Arab Muslim 
organization. That is where the issue comes from. That is the 
heart of its core. Those are the voices that are most useful. 
We often focus on many of the victims who are not Sunni Arab 
Muslims. Obviously, we care about all the victims, including 
Americans. But it is that core audience that it appeals to that 
we need to work on.
    The other thing, of course, is that the ideological 
dimension of the ISIS appeal is rarely touched. What are these 
elements that mobilize people, concepts of jihad, of kufr, of 
shirk, of Al-Wala wal-Bara, of taghut? These terms which are 
complicated, nuanced terms in Islamic history which ISIS uses 
as bumper stickers to kill. It is not Islam for Dummies. It is 
Salafi jihadism for Dummies. And so those are two of the 
challenges that we face in that space.
    Senator Portman. In some of your testimony, you talk about 
the fact that our messaging can be more effective, and we 
talked a little bit about that yesterday at the staff level 
about, what works and what does not work. You mentioned 
defectors, for instance. That seems to be more effective, for 
instance, than, as you say, someone who is not connected.
    You also talk about the victory narrative and that that is 
something that we need to respond to because that victory 
narrative encourages more people to feel as though they are 
part of something that is working.
    In your written testimony, you contrast our message that 
you thought was relatively ineffective after retaking Fallujah 
with that of a more productive messaging after taking a 
different Iraqi city. From a message perspective, can you talk 
about the difference between those two and just elaborate on 
your comments on what is most effective in terms of messaging?
    Mr. Fernandez. Sure. Both the taking of Fallujah and the 
taking of Mambij in Syria are good. They are good because you 
are taking something from ISIS. You are defeating them. So 
there is benefit even in a flawed retelling of military 
victory. So even Fallujah, which has been controversial in the 
pan Arab media and the Sunni Arab media--these are, Iranian 
militias and Shia death squads. That is some of the rhetoric 
out there. But even the way it has turned out, taking it from 
the Islamic State is a good thing.
    The point I make is that it could have been a better thing. 
It could have been a victory of a united Iraq, a united 
multiethnic, multireligious Iraq against the Islamic State. And 
that is not exactly how it was portrayed.
    In contrast, the Syrian Democratic Forces, the Kurdish 
Allied Forces in northern Syria that we support took a 
different tack. What they did is they put up front Sunni Arab 
Muslims who were allied with the Kurds in the taking of Mambij, 
and this is what is called the ``Mambij Military Council.'' So 
they took a back seat. They had the Arab Muslims take a front 
seat. That presented a less sectarian, less provocative way of 
doing things. They were both good. Victory in Fallujah is good, 
and victory in Mambij is good. Any defeat of the Islamic State 
is good. But you want to wring all the benefit that you can out 
of military victory, and we are not doing that. We are talking 
too much about what they are doing and not what we are doing to 
them.
    Senator Portman. Well, thank you. I have some additional 
questions for you both about the narrative and specifically 
what we ought to be doing better. But I would like to give my 
colleague an opportunity to ask questions. Senator Ayotte was 
here earlier. She has a background as a prosecutor and is on 
the Armed Services Committee and has spent a lot of time on 
these issues, and I would like her to have a chance to ask some 
questions.
    Senator Ayotte. Thank you so much, Chairman.
    Mr. Bergen, when you testified before the Committee before 
and I see it again in your written testimony, the discussion 
about--unlike prior terrorist groups that we have dealt with, 
that they have been--that there are many women involved, and 
you and I had an exchange on that.
    As I read your testimony today from where we were before, 
that continues, I think, to be the case, no diminishment in 
that, and obviously we saw with the San Bernardino situation, 
while that was more of a radicalization here, still, obviously, 
she was a big driver in this.
    So have you seen any diminishment in that and what we 
should be doing in terms of, as we are thinking about 
individuals that were involved in ISIS--and in your steps of 
recommendations, you say--and I think that Mr. Fernandez just 
talked about that as well. If you have been a member of ISIS, 
get people who have been part of it, and then also get them to 
go out online and obviously talk about the real experience. 
What about with women? Are we having any success with how we 
are going to engage women who join ISIS and why it is so 
attractive to women as well?
    Mr. Bergen. I mean, Senator, yes, I think they are still 
recruiting women. Part of it is sort of a romantic message, 
that you can marry the man of your dreams in part, which has 
been reinforced by people who get married there. What the 
countermessaging is to that I am not really sure, except I 
think I completely agree with Ambassador Fernandez that 
defectors are the most effective approach. And, the New York 
Times ran a very interesting massive piece with two women who 
defected. They gave them pseudonyms. They painted a very bleak 
picture.
    I think the United States faces an interesting question, 
which is we have a guy in Alexandria, Virginia, Mohamad Khweis, 
who is 26, who has defected. He could face 20 years in prison. 
He has obviously defected because he thinks ISIS is against 
Islam. So, the kind of bigger question is: What do we do with 
people who are defectors, American defectors? Do we throw them 
in prison for 20 years, or do we come up with something more 
creative?
    Senator Ayotte. Ambassador, did you want to comment on 
that?
    Mr. Fernandez. Yes. One of the problems we have, even when 
we have defectors, I am sure you have seen the images. The ISIS 
spokesman is looking at you, unmasked, telling you about his 
life, telling you about his personal testimony. He is 
unashamed, unembarrassed. And then we have all too often the 
defector, and what does the defector look like? The defector is 
masked or covered, obviously----
    Senator Ayotte. Because they are afraid.
    Mr. Fernandez [continuing]. For security reasons. So this 
is the disadvantage that we have with them.
    Senator Ayotte. Right.
    Mr. Fernandez. Their personal testimony is more powerful 
than ours, and it is more numerous than ours. So this is the 
challenge that we face, kind of a technical basic problem that 
we face.
    Senator Ayotte. I was interested also, Mr. Bergen, as I 
looked at your action items, this idea that you had about a 
database of foreign fighters, because we do know obviously that 
there are a number of individuals who have flown back and 
forth, especially fewer Americans, significant, a couple 
hundred Americans, but also with the Europeans, thousands. And 
as you raise the issue, it seemed clear to me that we still 
have significant information-sharing issues across our allies 
in Europe, and even with countries like Turkey, and that we 
probably do not know all are collecting in one place, people 
that we do know, in fact, have joined. And I think that is a 
significant issue that you point out that we should address.
    Mr. Bergen. Yes, I mean, Interpol has 5,000 names. We have 
30,000 people who have joined from around the world.
    Senator Ayotte. Right.
    Mr. Bergen. So we are 25,000 short. And my intuition is we 
had no idea about any of these people who blew themselves up 
over the past month in Bangladesh and Turkey. I think with the 
British and other European partners there is pretty good 
information sharing, but clearly a lot more has to be done.
    Senator Ayotte. And even if you look at countries like what 
happened in Belgium, with the deficiencies there, with some of 
the law enforcement deficiencies there in terms of compiling 
that, that seems something in terms of an intelligence tool 
that would be helpful to all of us.
    What other things, if you think about the intelligence 
front, that you think, the two of you think that we should be 
focusing on?
    Mr. Bergen. Well, one thing I would look at is if Amaq is 
ISIS' new service--and there are a couple of other entities 
that put out ISIS' message--why aren't we taking them down? I 
mean, I am not saying----
    Senator Ayotte. Right.
    Mr. Bergen. I mean literally taking out their production 
facilities. They must exist.
    Senator Ayotte. Exactly. It makes logical sense that we 
would do that, and that is something we should be asking our 
officials. Why aren't we just taking them down? I know it is a 
Whack-A-Mole situation.
    Mr. Bergen. Well, you whack enough moles----
    Senator Ayotte. Exactly, and you make it harder enough to 
do something, then they are--it is not that it will not come 
back, but why would you let it continue if you know it is 
there.
    Mr. Fernandez. And one thing we have seen, we have seen 
with the--initially people were skeptical about, well, taking 
stuff down on the Internet, right? They are just going to come 
back. And, yes, there are individuals who have been taken down 
500 times and are back for the 501st time. But what we have 
seen is that many, many of the maybe less motivated people drop 
off. So the Whack-A-Mole work on social media does pay 
dividends over time.
    Recently at MEMRI, we saw that, they have been driven 
mostly off of Twitter, and they are on Telegram, which is this 
German-Russian site, and we recently saw--just 2 days ago, we 
saw an ISIS message calling for people to return to Twitter, 
because even though Telegram is very useful and is a safe haven 
for them, nothing is as good as mobilizing, getting your 
message out very broadly as Twitter. So we need to continue to 
be mowing the lawn on Twitter because they will come back if 
they are given the space to do so.
    Senator Ayotte. And the other issue is, as you heard 
Director Steinbach testify--and it is replete in your testimony 
as well--that they are consuming this extremist material. Now, 
there is line of, obviously, what can you consume without 
taking action in terms of where you can take legal action. But 
it is a strong indicator, if somebody is consuming this 
extremist material, that this is something that we have to be 
focused on, obviously not just eliminating the ability to push 
this out on the Internet, but we have seen it over a series of 
attacks, that that is one of the components of an individual 
who ends up being radicalized, or self-radicalized.
    Mr. Fernandez. At the very least, you want to give the 
potential consumer in the United States the same ability to 
access material that is not going to radicalize them, that is 
going to counter that as the radicalization material. To me, it 
is unconscionable that you go on YouTube, which is an American 
company, and you put in a term, an Islamic term, which is not 
necessarily an ISIS term, and the No. 1 thing you get is the 
algorithm gives you basically a well-known American terrorist 
that we killed.
    There has to be ways that, you do the algorithms or 
whatever you do to make sure that the voices of tolerance, the 
voices of reason, the voices of humanity are there, at least to 
compete with the extremists if you cannot take them down.
    Senator Ayotte. It seems to me that, of course, we can do 
that, and we know that not only what the government activity 
and responsibilities but the private sector responsibility in 
terms of how these sites are being used. And we know that they 
are taking some steps that are important, but I think further 
engaging on that is critical.
    Well, I appreciate both of you being here today, and thank 
you, Chairman. I know you have more questions.
    Senator Portman. I just have a couple more questions.
    One, building on what you just said, Ambassador Fernandez--
and, Mr. Bergen, I would like to hear your view on this--you 
mentioned the Twitter work. I said in my opening statement they 
have closed down more than 100,000 ISIS-linked accounts, and 
you have to assume a lot of that comes back. But you were 
saying also, ``mowing the grass'' I think is the analogy you 
used, it is important to keep that up. I hope Twitter, 
Facebook, and others are continuing that effort. Do you think 
what Facebook has done, which is apparently worked to remove 
offending users but also to help promote counter-jihadist 
propaganda, has also been effective?
    Mr. Fernandez. I believe that there has been progress 
across the board by the Big Three--by Twitter, YouTube, and 
Facebook. So there has been tremendous progress if we are 
looking at 2 years ago or even 1 year ago. That is a good 
thing.
    Facebook has been particularly effective or particularly 
aggressive in taking material down and shutting things down. So 
we want to encourage that. We want to encourage all of them to 
do that.
    And then we want to focus on these other safe havens where 
they are jumping to, so Telegram, JustPaste.it, Archives.org, 
what can be done with these companies, these entities that are 
in the West, to at least make life a little more difficult for 
the extremists? Realizing that in the end the message is going 
to get out, and the message has to be countered, it has to be 
answered. But we certainly do not want to give them a free ride 
in our own space.
    Senator Portman. I think that is very sensible, and, this 
Subcommittee has worked hard on this issue in some other 
contexts with human trafficking where there is a challenge, the 
``dark side of the Internet,'' as I call it, and that same dark 
side unfortunately is being utilized by some of these 
radicalized elements.
    Something that struck me in your testimony, Mr. Bergen, was 
about women and the fact that ISIS has had luck in attracting 
more women to its ranks, and this is remarkable to me because 
of how poorly they treat women. As one example, ISIS has women 
marry fighters, and if a woman's husband dies, she is quickly 
married off again, I am told, sometimes in violation of Islamic 
law. You talked a little about that earlier. But what accounts 
for this phenomenon? Why are women feeling compelled to sign up 
given the reality?
    Mr. Bergen. I do not have a good answer to that, but I 
think in the 1970s they might have joined the Weather 
Underground or the Black Panthers or some other utopian group 
that promised utopia through revolutionary violence, and this 
is one of the last revolutionary ideologies left standing. And 
so, I mean, that is an attempt at answering the question, but, 
given their ultra misogyny, it is really a mystery.
    Senator Portman. And, again, the counternarrative needs to 
be out there, defectors included, and there are women who have 
defected who have come forward, and that seems to me to be, one 
of our opportunities given the phenomenon.
    On the Global Engagement Center and the work that we talked 
about earlier with the previous panel, Ambassador Fernandez, of 
course, you have lots of experience with the predecessor, the 
head of the Center for Strategic Counterterrorism 
Communications. I know it is early--the Global Engagement 
Center is really only a few months old--but what are you 
encouraged by so far? What are you discouraged by? In your 
written statement, you talk about the Global Engagement Center 
not having a dedicated line item budget appropriation, the 
funding issue that I mentioned earlier; emphasis on building 
out a professional staff, they need to still do that; too much 
emphasis on transitory events rather than building out 
something that is focused on combating the threat long-term. 
Can you elaborate on your concerns and any suggestions you have 
for improvement?
    Mr. Fernandez. Well, I am encouraged in the work that they 
are doing with recanters, with defectors. That is good. I am 
encouraged with the idea of building proxies, building a 
network of proxies across the world that do stuff. So that is 
the good stuff.
    The areas where I am concerned is a lot of what the work of 
proxies are doing is not very impressive. It is just churning 
stuff out. It is not well aligned. It is material that--``Do 
not do drugs,'' right? That kind of stuff. Of course, yes, do 
not become a terrorist. But it does not go deep. It is not as 
personal. It is not as powerful as one would want it to be.
    Now, it is early days, but there is a lot of movement and 
not necessarily progress yet. So I think they need to--they 
need some more time. I see some good things, and I see some 
things which are a little concerning.
    Senator Portman. Part of what I am hearing you say is that 
we need to target the message more precisely. This is the 
analytics point that we were making earlier, and I talked about 
this particular issue of the legal constraint of the Privacy 
Act. You had to deal with that as well, I assume.
    Do you have thoughts on that? To me it just does not make 
sense that we would not be able to target those most 
vulnerable, susceptible who are foreigners, not American 
citizens, not permanent residents. Do you have thoughts on 
that?
    Mr. Fernandez. Well, we assumed, sir, when I headed CSCC, 
that if we are messaging in Arabic, Urdu, and Somali in 
platforms that we know are outside the United States, we are 
going to assume that the overwhelming majority of the people 
that we are messaging against or with or to are not Americans. 
Yes, some guy in Minneapolis could see what we are doing, but 
we are assuming that if we are messaging or looking at a Yemeni 
tribal forum, which is one of the places that we looked at, 
most of the people there are not Americans.
    So that was actually not a concern of ours at all. I was 
actually kind of very surprised by that testimony myself.
    Senator Portman. Well, we are going to be digging into that 
further, as you know from my questions there. We have an 
opportunity here online, in addition to the other things we 
talked about earlier that need to be done on the military side 
or, protecting the homeland through law enforcement and so on. 
But we have an opportunity here to step up our game, don't we? 
And not that there is any one silver bullet, but to me this is 
the most difficult and perhaps, therefore, the most important 
part of the entire effort to better protect our homeland and 
better protect the free world from this terrorist threat.
    So we thank you for your expertise on it. You want us to 
keep writing about it. What is the book that you have next to 
your microphone there?
    Mr. Fernandez. I mentioned the International Center for the 
Study of Violent Extremism, Dr. Anne Speckhard of Georgetown 
University, and this is actually the book that just came out as 
part of their work, and it actually collates the testimony of 
defectors.
    Senator Portman. OK.
    Mr. Fernandez. And it has a recommendation by Peter Bergen 
and Alberto Fernandez on the back.
    Senator Portman. Wow. You are on the book cover. So Bergen 
has a book, too. He has a 1-800 number for his book. 
[Laughter.]
    What is your new book, Peter?
    Mr. Bergen. ``United States of Jihad: Investigating 
America's Homegrown Terrorists,'' and it is an attempt to look 
at many of the issues we just discussed.
    Senator Portman. Well, you get to talk about your book 
because you were kind enough to come here and testify before 
us, spend your day with us. Sorry about the interruptions, and 
thank you for your expertise and your willingness to help us to 
be more effective in our fight against terrorism, specifically 
this countermessaging online.
    The hearing record will remain open for 15 days for 
additional comments or questions by any of the Subcommittee 
members.
    This hearing will now be adjourned.
    [Whereupon, at 4:36 p.m., the Subcommittee was adjourned.]

                            A P P E N D I X

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
                                 
                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
